NO. __________
IN THE

Supreme Court of the United States
ASHLYN HOGGARD,
Petitioner,
v.
RON RHODES, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
PETITION FOR A WRIT OF CERTIORARI
DAVID A. CORTMAN
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner
(additional counsel listed on inside cover)

TYSON C. LANGHOFER
CHRISTOPHER P. SCHANDEVEL
MATHEW W. HOFFMANN
ALLIANCE DEFENDING
FREEDOM
20116 Ashbrook Place
Suite 250
Ashburn, VA 20147
(571) 707-4655

ETHAN C. NOBLES
NOBLES LAW FIRM
149 S. Market
Benton, AR 72015
(501) 794-9742

i
QUESTIONS PRESENTED
1. Whether qualified immunity shields publicuniversity officials from liability when the
reasoning—but not the holding—of a binding decision
gave the officials fair warning they were violating the
First Amendment.
2. What degree of factual similarity must exist
between a prior case and the case under review to
overcome qualified immunity in the First Amendment
context?
3. Whether public-university officials should be
held to a higher standard than police officers and
other on-the-ground enforcement officials for
purposes of qualified immunity.

ii
PARTIES TO THE PROCEEDING
Petitioner is Ashlyn Hoggard.1
Respondents are Ron Rhodes, Tim Langford, Niel
Crowson, Stacy Crawford, Price C. Gardner, William
Stripling, and Martha Spack, all Arkansas State
University officials or members of the University
Board of Trustees.
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Eighth Circuit, No.
19-3016, Turning Point USA at Arkansas State
University et al. v. Rhodes, et al., judgment entered
August 31, 2020.
U.S. District Court for the Eastern District of
Arkansas, No. 3:17-cv-00327-JLH, Turning Point
USA at Arkansas State University, et al. v. Rhodes, et
al., final judgment entered August 19, 2019.

1

Turning Point USA at Arkansas State University was also a
plaintiff below but has no remaining claims for relief.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING ........................... ii
LIST OF ALL PROCEEDINGS ................................. ii
TABLE OF AUTHORITIES ..................................... vi
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL PROVISIONS
AND STATUTES .................................................. 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 4
I. Background ........................................................... 4
II. Proceedings ........................................................... 6
REASONS FOR GRANTING THE WRIT................. 8
I. This Court should grant review to resolve a
4-3 circuit split over whether a binding
decision’s reasoning can “clearly establish the
law” for purposes of qualified immunity. ............. 8
A. The Sixth, Seventh, Ninth, and Eleventh
Circuits all look to the reasoning of prior
decisions for clearly established law. ............. 9

iv
B. The Fifth and Tenth Circuits look only to
results, not reasoning. ................................... 13
C. The Eighth Circuit’s decision in this case
shows that it remains squarely in the Fifth
and Tenth Circuits’ camp. ............................. 14
II. This Court also should grant review to clarify
how much factual specificity in a prior case is
required to overcome qualified immunity in
the First Amendment context. ........................... 19
III.Finally, this Court should grant review to
resolve a 3-1 circuit split over whether school
officials should be held to a higher standard
than other state officials..................................... 22
IV. This case is an ideal vehicle to resolve circuit
conflicts and provide much needed clarity for a
doctrine that allows officials nationwide to
violate the Constitution with the appearance
of impunity. ......................................................... 24
CONCLUSION ......................................................... 26

v
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Eighth Circuit
Opinion in 19-3016
Issued August 31, 2020 ............................................ 1a
United States District Court
Eastern District of Arkansas
Opinion and Order in 3:17-CV-00327
Issued August 19, 2019 .......................................... 24a
United States District Court
Eastern District of Arkansas
Opinion and Order in 3:17-CV-00327
Issued March 23, 2018 ........................................... 60a

vi
TABLE OF AUTHORITIES
Cases
A.N. by & through Ponder v. Syling,
928 F.3d 1191 (10th Cir. 2019) ............................ 21
Abbott v. Pastides,
900 F.3d 160 (4th Cir. 2018) ................................ 23
Anderson v. Creighton,
483 U.S. 635 (1987) .............................................. 12
Ashcroft v. al-Kidd,
563 U.S. 731 (2011) .............................................. 19
Bailey v. Wheeler,
843 F.3d 473 (11th Cir. 2016) .............................. 11
Bible Believers v. Wayne County,
805 F.3d 228 (6th Cir. 2015) ................................ 10
Bowman v. White,
444 F.3d 967 (8th Cir. 2006) .................. 2, 7, 16, 17
Brosseau v. Haugen,
543 U.S. 194 (2004) .............................................. 20
Brown v. Frey,
889 F.2d 159 (8th Cir. 1989) .................................. 9
Burchett v. Kiefer,
310 F.3d 937 (6th Cir. 2002) ................................ 10
Dillard v. City of Springdale,
930 F.3d 935 (8th Cir. 2019) .......................... 21, 25

vii
Dillard v. O’Kelley,
961 F.3d 1048 (8th Cir. 2020) .............14, 15, 16, 21
Dillard v. O’Kelley,
No. 20-670, 2021 WL 78198 (U.S. Jan. 11,
2021) ............................................................... 14, 21
Estate of Escobedo v. Bender,
600 F.3d 770 (7th Cir. 2010) ................................ 12
Feathers v. Aey,
319 F.3d 843 (6th Cir. 2003) ................................ 10
Hanes v. Zurick,
578 F.3d 491 (7th Cir. 2009) ................................ 12
Harlow v. Fitzgerald,
457 U.S. 800 (1982) .............................................. 17
Harris v. Mahr,
No. 20-1002, 2020 WL 7090506 (10th Cir. Dec.
4, 2020) ................................................................. 13
Hernandez v. City of San Jose,
897 F.3d 1125 (9th Cir. 2018) .............................. 11
Holloman ex rel. Holloman v. Harland,
370 F.3d 1252 (11th Cir. 2004) ............................ 22
Hope v. Pelzer,
536 U.S. 730 (2002) ....................................... passim
Hosty v. Carter,
412 F.3d 731 (7th Cir. 2005) ................................ 23

viii
Jones v. Cannon,
174 F.3d 1271 (11th Cir. 1999) ........................ 9, 11
Jones v. Fransen,
857 F.3d 843 (11th Cir. 2017) .............................. 11
Kisela v. Hughes,
138 S. Ct. 1148 (2018) .......................................... 21
Leiser v. Moore,
903 F.3d 1137 (10th Cir. 2018) ............................ 13
Lunini v. Grayeb,
395 F.3d 761 (7th Cir. 2005) ................................ 12
Malley v. Briggs,
475 U.S. 335 (1986) .............................................. 24
McGaughey v. City of Chicago,
664 F. Supp. 1131 (N.D. Ill. 1987) ....................... 23
McGaughey v. City of Chicago,
690 F. Supp. 707 (N.D. Ill. 1988) ......................... 23
Mercado v. City of Orlando,
407 F.3d 1152 (11th Cir. 2005) ............................ 11
Morgan v. Swanson,
755 F.3d 757 (5th Cir. 2014) ................................ 23
Morrow v. Meachum,
917 F.3d 870 (5th Cir. 2019) .......................... 13, 21
Mullenix v. Luna,
577 U.S. 7 (2015) ............................................ 20, 25

ix
Robinson v. Hawkins,
937 F.3d 1128 (8th Cir. 2019) .............................. 14
Rust v. Sullivan,
500 U.S. 173 (1991) .............................................. 23
Thomas v. White-Gordon,
672 F. App’x 832 (10th Cir. 2016) ....................... 13
Valdez v. Roybal,
186 F. Supp. 3d 1197 (D.N.M. 2016) ................... 21
Wilkinson ex rel. Wilkinson v. Russell,
182 F.3d 89 (2d Cir. 1999) ............................... 9, 10
Zadeh v. Robinson,
928 F.3d 457 (5th Cir. 2019) ................................ 20
Statutes
28 U.S.C. 1254(1) ....................................................... 1
28 U.S.C. 1291 ............................................................ 1
28 U.S.C. 1331 ............................................................ 1
42 U.S.C. 1983 ............................................................ 1
Other Authorities
Amanda K. Eaton, Optical Illusions: The Hazy
Contours of the Clearly Established Law and
the Effects of Hope v. Pelzer on the Qualified
Immunity Doctrine, 38 GA. L. REV. 661 (2004) ..... 8

x
Daniel K. Siegel, Clearly Established Enough: The
Fourth Circuit’s New Approach to Qualified
Immunity in Bellotte v. Edwards, 90 N.C. L.
REV. 1241 (2012) .................................................. 20
Karen Blum, Erwin Chemerinsky, & Martin A.
Schwartz, Qualified Immunity Developments:
Not Much Hope Left for Plaintiffs, 29 TOURO L.
REV. 633 (2013) .............................................. 19, 20
Kit Kinports, The Supreme Court’s Quiet
Expansion of Qualified Immunity, 100 MINN. L.
REV. HEADNOTES 62 (2016) .................................. 19

1
DECISIONS BELOW
The district court’s initial ruling denying Respondents’ motion to dismiss is unreported but available
at No. 3:17-cv-00327, 2018 WL 1460863 (E.D. Ark.
Mar. 23, 2018), and reprinted in the Appendix
(“App.”) at 60a–65a. The district court’s final ruling
granting Respondents summary judgment is reported
at 409 F. Supp. 3d 677 and is reprinted at App.24a–
59a. The Eighth Circuit’s affirmance is reported at
973 F.3d 868 and reprinted at App.1a–23a.
STATEMENT OF JURISDICTION
On August 31, 2020, the Eighth Circuit issued its
opinion concluding that Respondents violated
Petitioner Ashlyn Hoggard’s First Amendment rights
but nonetheless affirming summary judgment based
on qualified immunity. Lower courts had jurisdiction
under 28 U.S.C. 1331 and 28 U.S.C. 1291. This Court
has jurisdiction under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL
PROVISIONS AND STATUTES
42 U.S.C. 1983 states, in relevant part:
Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District
of Columbia, subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress.

2
INTRODUCTION
Petitioner Ashlyn Hoggard sued to challenge
Arkansas State University’s inaptly named “freedom
of expression” policies. These policies required anyone
wishing to speak anywhere on campus—including
students—to ask permission from University officials
before communicating. The policies also gave University officials unbridled discretion to decide whether
and how to enforce these speech restrictions.
In the fall of 2017, Ashlyn fell victim to that
discretion when she set up a small table near the
student union to recruit for a new Turning Point USA
chapter. Apparently applying an unwritten “Tabling
Policy” that only allowed registered student groups
and University departments to table in this hightraffic location, University officials told Ashlyn that
she was not allowed to table there. The University
had “Free Expression Areas” for unregistered groups
like hers—but those had to be reserved in advance.
Despite Ashlyn’s objection, campus police ordered her
to remove her table.
The Eighth Circuit easily concluded that the
officials violated Ashlyn’s First Amendment rights.
But the panel affirmed summary judgment for the
officials responsible for the challenged policies,
holding they were entitled to qualified immunity
because prior cases did not clearly establish Ashlyn’s
rights. That was odd because the Eighth Circuit had
previously recognized a heavy presumption of unconstitutionality when a university requires permission
before using an outdoor space. Bowman v. White, 444
F.3d 967, 980 (8th Cir. 2006). The difference was that
the court in Bowman had ruled against the plaintiff
there because he was a non-student and had previ-

3
ously disrupted the campus community by attracting
large crowds. Even though Ashlyn was a student and
did not disrupt or attract large crowds, the panel
concluded that Ashlyn’s First Amendment rights
were not “beyond debate” before this case.
In four other circuits—the Sixth, Seventh, Ninth,
and Eleventh—Ashlyn likely would have prevailed.
Those courts all look to the reasoning of prior
decisions for determining clearly established law, not
just the outcome. Two circuits—the Fifth and the
Tenth—look only to prior outcomes, wrongly labeling
necessary legal reasoning as mere dicta. And the
Eighth Circuit is effectively in the latter camp. Here,
the court criticized any Arkansas State official who
believed the Tabling Policy was permissible for
“ignor[ing] the critical fact that the Bowman plaintiff
was a non-student, and the speech restrictions [there]
were justified by compelling safety and administrative concerns.” App.19a. “Nonetheless,” the court
went on, “Bowman’s distinguishability does not mean
the defendants ‘knowingly violated the law.’” Ibid.
(cleaned up).
This Court should grant the petition, resolve the
circuit conflict, and deny the officials qualified
immunity. In doing so, the Court should also clarify
how “specific” a prior precedent must be to shield
government conduct that violates the First Amendment. And the Court should resolve a separate 3-1
circuit split over the level of deference owed to
university officials in the First Amendment context.
The quagmire of lower-court, qualified-immunity
rules—particularly on public-university campuses—
is in desperate need of this Court’s clarification.
Review is warranted.

4
STATEMENT OF THE CASE
I.

Background

The relevant facts are uncomplicated and
undisputed. In fall 2017, Ashlyn transferred to
Arkansas State University-Jonesboro as a junior
majoring in political science. 8th Cir. Joint Appendix
(“J.A.”) 104, 806. Earlier that year, Ashlyn had
learned about a national organization called Turning
Point USA and had reached out to its founder on
Twitter. Id. at 114. Ashlyn liked that the organization
educated students about the differences between
capitalism and socialism, big government and small
government, and the importance of free markets.
Ibid.
Because Turning Point did not have an active
chapter at the University, Ashlyn decided to start one.
J.A.115–17, 147. She was introduced via email to
Emily Parry, Turning Point’s south-central regional
manager, who showed Ashlyn how to complete the
necessary paperwork to start the new student organization. Id. at 117, 123. The two of them filled out
and submitted an application on Turning Point’s
website. Id. at 147. Together, they decided to set up a
table on campus the next day to recruit members for
the new chapter. Id. at 123. (Five members were
required to register as a student organization.
J.A.346.)
Ashlyn and Emily decided to table on the side of a
large, paved walkway leading to the student union
entrance, an area called Heritage Plaza. J.A.121, 125,
231, 240, 247, 263, 798. That location allowed
interested students to stop and voluntarily approach
their table, so Ashlyn and Emily did not have to solicit
students who might not be interested. Id. at 130.

5
After 20–30 minutes, a University official ordered
Ashlyn and Emily to leave. J.A.119, 236. When they
did not do so immediately, the official called another
official who called campus police. Id. at 119, 236–37,
240, 717. The responding officer testified that he was
addressing a complaint that someone was violating
“the freedom of speech reservation policy.” Id. at 742,
756. The second official explained that the University
had “freedom of speech areas,” and that an advance
reservation was required to use those areas—which
Ashlyn and Emily did not have. Id. at 344, 346 (videos
of the encounter). Heritage Plaza itself was not
available for unregistered student organizations to
recruit members, only existing organizations. Id. at
234–35, 663–64. The official concluded by telling
Ashlyn and Emily they couldn’t speak anywhere on
campus without telling the official first, and the
responding officer threatened arrest. Ibid. As the
Eighth Circuit put it, Ashlyn’s “recruiting efforts—at
least at her [Heritage Plaza] informational table—
were done for the day.” App.4a.
The larger Arkansas State University System had
a “Freedom of Expression Policy” that governed all its
campuses. J.A.41–43, 850. That policy included
speech zones, a 72-hour advance-reservation requirement for the rest of campus, a lack of defined terms,
and substantial discretion delegated to University
officials. Id. at 41–43, 418. The Jonesboro campus’s
policy mostly tracked the system policy. Id. at 45–48,
421–23. And the Jonesboro official responsible for
reserving the free expression areas admitted that she
had extensive discretion; she could even allow
speakers to remain in a free-expression area without
an advanced reservation if she chose. Id. at 220, 224–
25, 228, 244.

6
Tellingly, there is no written policy specifying
who may table in Heritage Plaza. J.A.236, 249–51.
The Tabling Policy enforced against Ashlyn “simply
emerged from the bureaucratic aether.” App.14a. It
gave a University official unfettered authority to
grant or deny speakers permission to set up a table.
J.A.46. It is undisputed that Ashlyn and Emily were
not causing a disturbance, were not blocking a
thoroughfare, and did not draw any complaints. Id. at
244–45. Yet officials barred them from recruiting
student members in the Plaza and refused even to
offer them the opportunity to move to a “free
expression area” and continue speaking there. Id. at
125, 242, 344.
II. Proceedings
Ashlyn and Turning Point USA at Arkansas State
University filed suit, bringing facial and as-applied
challenges to the University’s speech policies. Ashlyn
sought an injunction and compensatory damages. The
facial challenge was then rendered moot by the Arkansas General Assembly’s enactment of the Forming
Open and Robust University Minds (FORUM) Act,
and the University’s resulting repeal of its speech
policies. J.A.1042–44. The parties cross-moved for
summary judgment on the as-applied claims, and the
district court denied the plaintiffs’ motion and
granted the officials’, holding that the officials were
entitled to qualified immunity. App.24a–59a.
The Eighth Circuit easily concluded that the
University officials had violated Ashlyn’s rights:
“[T]he (limited) availability of alternative forums and
the defendants’ educational expertise cannot compensate for the weak justification . . . the defendants
offer for their status-based discrimination.” App.17a.

7
On qualified immunity, the panel’s analysis
focused on Bowman v. White, 444 F.3d 967, 974 (8th
Cir. 2006). Bowman was also “an Arkansas campus
speech case,” and in that case, the court had “upheld
several complained-of speech restrictions imposed in
an unlimited public forum.” App.19a. While at first
blush an Arkansas State University official might
thus have viewed Bowman as authorizing the Tabling
Policy, such a view “ignores the critical fact that the
Bowman plaintiff was a non-student, and the speech
restrictions [there] were justified by compelling safety
and administrative concerns.” Ibid. (The non-student
was a street preacher who drew massive, disruptive
crowds. Bowman, 444 F.3d at 973.) “Under these
circumstances,” and in that “as applied” challenge,
the Bowman court held that the policy overcame the
“heavy presumption of unconstitutionality” against
prior restraints on speech. 444 F.3d at 974, 980–81.
In contrast here, Ashlyn was a student and had never
caused a campus disturbance. So even though the
Bowman court ruled for the university defendants, its
reasoning dictated the unconstitutionality of the
unwritten Tabling Policy at issue here.
But rather than applying Bowman’s reasoning,
which required judgment in favor of Ashlyn, the panel
focused on the decision’s result—judgment in favor of
school officials. Given that outcome, opined the panel,
the University officials here “could have reasonably
viewed Bowman as permitting the Tabling Policy;
Bowman’s distinguishability does not mean the
defendants knowingly violated the law.” App.19a
(cleaned up). Accordingly, the University officials
escaped any responsibility and left Ashlyn with no
redress for her constitutional injuries.

8
REASONS FOR GRANTING THE WRIT
I.

This Court should grant review to resolve a
4-3 circuit split over whether a binding
decision’s reasoning can “clearly establish
the law” for purposes of qualified immunity.

The circuits are sharply divided over whether
“clearly established” law comes only from prior cases’
holdings or also includes their reasoning. That split
derives from this Court’s decision in Hope v. Pelzer,
536 U.S. 730 (2002), which strongly suggested that a
previous decision’s reasoning can indeed give fair
warning of what is unconstitutional.
In Hope, this Court held that qualified immunity
did not shield three prison officials from liability for
violating the Eighth Amendment when they repeatedly punished an inmate by handcuffing him to a
“hitching post.” 536 U.S. at 733–35, 745–46. Rejecting
the Eleventh Circuit’s “rigid gloss on the qualified
immunity standard,” this Court explained that the
“salient question” was “whether the state of the law”
gave the prison officials “fair warning” that their
conduct was unconstitutional. Id. at 739, 741.
To answer that question, this Court relied in part
on the “reasoning, though not the holding,” of a binding Eleventh Circuit case. Id. at 743. “Although the
facts of [that] case [were] not identical,” and the court
there had held that the challenged conduct was not
unconstitutional, the case’s “premise [had] clear
applicability” in Hope. Ibid.1 Thus it “gave fair warnAccord Amanda K. Eaton, Optical Illusions: The Hazy Contours
of the Clearly Established Law and the Effects of Hope v. Pelzer
on the Qualified Immunity Doctrine, 38 GA. L. REV. 661, 689
(2004).
1

9
ing” to the prison officials “that their conduct crossed
the line of what is constitutionally permissible.” Ibid.
Stated differently, the “reasoning, though not the
holding,” of the case should have made it “apparent”
to “reasonable officers in that Circuit” that their
conduct violated the Eighth Amendment. Ibid.
A. The Sixth, Seventh, Ninth, and Eleventh
Circuits all look to the reasoning of prior
decisions for clearly established law.
Before Hope, it was unclear whether “the state of
the law” could give reasonable officials “fair warning”
that their conduct was unconstitutional based on a
binding decision’s reasoning. 536 U.S. at 741. The
Eighth Circuit had held that mere “statements” (i.e.,
reasoning) in a prior decision of this Court did “not
create a clearly established right but instead
constitute[d] dicta.” Brown v. Frey, 889 F.2d 159, 169
(8th Cir. 1989).2 Likewise, the Eleventh Circuit “held
that dicta cannot clearly establish the law for
qualified immunity purposes.” Jones v. Cannon, 174
F.3d 1271, 1288 n.11 (11th Cir. 1999). On the Second
Circuit, though, Judge Calabresi had observed “that
lucid and unambiguous dicta concerning the existence
of a constitutional right can without more make that
right ‘clearly established’ for purposes of a qualified
immunity analysis.” Wilkinson ex rel. Wilkinson v.
Russell, 182 F.3d 89, 112 (2d Cir. 1999) (Calabresi, J.,
concurring in part) (emphasis added). Forecasting
2

When a court sets forth legal standards as it reasons its way
toward a holding that officials acted lawfully, those statements
are not dicta in the usual sense but are essential to the outcome.
Confusingly, courts in this context often use the terms “dicta,”
“statements,” and “reasoning” interchangeably.

10
what this Court would write in Hope, Judge Calabresi
reasoned that “there could be enough clear statements about a right in dicta [i.e., reasoning] from
other cases so that a court could declare that the right
had been clearly established.” Id. at 113 n.4.
Following Hope, four circuit courts of appeals
have all held that the reasoning of a prior, binding
decision can supply the required specificity to show
that the law is clearly established:
1. Just months after the decision, the Sixth
Circuit applied the Court’s “recent guidance in Hope”
to hold that a plaintiff ’s Fourth Amendment right to
be free from detention “for three hours in ninetydegree heat with no ventilation” was “clearly
established for qualified immunity purposes.”
Burchett v. Kiefer, 310 F.3d 937, 945 (6th Cir. 2002).
In Hope, this Court had “made clear” that “a right is
clearly established when ‘[t]he reasoning, though not
the holding,’ of a prior court of appeals decision puts
law enforcement officials on notice, or when the
‘premise’ of one case ‘has clear applicability’ to a
subsequent set of facts.” Ibid. (quoting Hope, 536 U.S.
at 743). Citing the reasoning of three of its prior
decisions, the Sixth Circuit held that the “premises”
enunciated in those cases had “clear applicability” to
the case before it, and that “the reasoning of those
cases should have alerted reasonable officers to the
constitutional violations inherent in subjecting a
detainee to excessive heat.” Id. at 946. See also Bible
Believers v. Wayne Cnty., 805 F.3d 228, 258 (6th Cir.
2015) (en banc) (the “facts and analysis” in a partially
overruled prior decision had “nonetheless alerted” the
defendants that their actions “could subject them to
liability”); Feathers v. Aey, 319 F.3d 843, 850 (6th Cir.
2003) (applying the language from Hope).

11
2. More recently, the Ninth Circuit applied Hope
and held that the “reasoning, though not the holding,”
of one of its prior decisions “gave fair warning” to the
defendant police officers that “their conduct crossed
the line of what is constitutionally permissible.”
Hernandez v. City of San Jose, 897 F.3d 1125, 1138
(9th Cir. 2018) (quoting Hope, 536 U.S. at 743). In its
prior case, the court had “ultimately held” that the
plaintiffs had “failed to establish a constitutional
violation.” Ibid. (emphasis added). But it also had
explained that it would have reached a different
result if certain critical facts had been different. Ibid.
Those facts were different in Hernandez. Ibid. And
under Hope, that was enough to clearly establish the
“violative nature” of the officers’ “particular conduct.”
Ibid. (cleaned up).
3. As for the Eleventh Circuit, it abandoned its
pre-Hope position that “dicta cannot clearly establish
the law for qualified immunity purposes.” Jones, 174
F.3d at 1288 n.11. In Bailey v. Wheeler, the court
applied Hope’s language to reject the defendant’s
qualified-immunity defense. 843 F.3d 473, 484 (11th
Cir. 2016). That defense failed since the “reasoning”
of one of the court’s prior decisions and the “broad
principle it establishe[d]” should have placed the
defendant “on notice that he could not potentially
endanger [the plaintiff ’s] life in retaliation for [his]
exercise of his First Amendment rights.” Ibid. Accord
Mercado v. City of Orlando, 407 F.3d 1152, 1159 (11th
Cir. 2005) (quoting Hope’s “reasoning, though not the
holding” language); Jones v. Fransen, 857 F.3d 843,
852 (11th Cir. 2017) (same).

12
4. Finally, the Seventh Circuit has made a similar
shift. But unlike the Eleventh Circuit, the Seventh
Circuit grounded its change in Anderson v. Creighton,
483 U.S. 635 (1987). In Lunini v. Grayeb, the court
had previously rejected an argument that language in
a “factually dissimilar” prior case clearly established
the relevant law. 395 F.3d 761, 772 (7th Cir. 2005), as
amended on denial of reh’g and reh’g en banc (Mar. 4,
2005). The “actual holding” in that prior case had
“ultimately vindicated the police officers’ claims of
qualified immunity.” Ibid. And the relevant language
was “pure dicta.” Ibid. Thus, “[h]owever suggestive”
that dicta might have been, the court in Lunini
concluded that “a claim in a factually dissimilar case
which ultimately fails to survive a qualified immunity
defense cannot be said to sufficiently define the
contours of the purported right.” Ibid. (cleaned up).
Five years later, the Seventh Circuit did an about
face. Discussing the same language it had disparaged
as “pure dicta” in Lunini, the court in Hanes v. Zurick
countered that “even dicta may clearly establish a
right.” 578 F.3d 491, 496 (7th Cir. 2009) (citing
Anderson, 483 U.S. at 640). Quoting Judge
Calabresi’s concurrence in Wilkinson, the court added
that the “statement” in its earlier opinion “could not
be more lucid and unambiguous.” Ibid. Thus, “[s]ince
the conduct alleged” was “almost identical to the
requirements set out” in that earlier opinion, “a
reasonable officer was on notice that such conduct
violates the constitution.” Ibid. Accord Est. of
Escobedo v. Bender, 600 F.3d 770, 786 (7th Cir. 2010)
(finding violation of clearly established right because,
“through the use of lucid and unambiguous dicta,” the
court had “repeatedly expressed [its] concern with the
overuse of flash bang devices”) (cleaned up).

13
B. The Fifth and Tenth Circuits look only to
results, not reasoning.
Other circuits take the opposite approach. Even
while recognizing that some “courts have suggested
dicta can clearly establish the law for purposes of
qualified immunity,” the Fifth Circuit insists that
“clearly established law comes from holdings, not
dicta.” Morrow v. Meachum, 917 F.3d 870, 875 & n.6
(5th Cir. 2019). Accordingly, the Fifth Circuit does not
require government officials to know the law
announced in previous decisions, only the outcome:
“[W]hile officers are charged with knowing the results
of our cases—at least when they are so numerous and
pellucid as to put the relevant question beyond
debate—officers are not charged with memorizing
every jot and tittle we write to explain them.” Id. at
875–76 (emphasis added, cleaned up).
Similarly, the Tenth Circuit in Leiser v. Moore,
903 F.3d 1137 (10th Cir. 2018), refused to rely on
reasoning in this Court’s “precedents regarding a
constitutional protection against government disclosure of personal information,” after this Court made
clear that those statements “were dicta.” Id. at 1143.
Given that qualification, the Tenth Circuit concluded
that “clearly established law [did] not support
Plaintiff ’s constitutional claim.” Id. at 1145. See also
Harris v. Mahr, No. 20-1002, 2020 WL 7090506, at *3
(10th Cir. Dec. 4, 2020) (“This discussion of the
failure-to-intervene theory was simply dicta and
would not constitute clearly established law.”);
Thomas v. White-Gordon, 672 F. App’x 832, 836 (10th
Cir. 2016) (“Anything in that opinion supporting
substantive-due-process claims would have to
be dicta, hardly the basis for clearly established
law.”).

14
In sum, four circuits have held—consistent with
Hope—that the reasoning of a prior decision can
supply the required specificity to show that the law is
clearly established, even if the outcome of the prior
decision is not directly applicable to the current
situation. And two have held that it cannot.
C. The Eighth Circuit’s decision in this case
shows that it remains squarely in the
Fifth and Tenth Circuits’ camp.
Eighth Circuit judges were previously divided
over whether the reasoning of a prior opinion can be
enough to clearly establish the law. For example, in
Robinson v. Hawkins, Judge Colloton accused the
majority of wrongly relying “on dicta rather than
holdings” of prior decisions. 937 F.3d 1128, 1141 (8th
Cir. 2019) (Colloton, J., dissenting in part). But the
majority never said it was doing that. Instead, it
expressly said it was relying on the holding from a
prior case. Id. at 1137 (“clearly established law holds
. . .”) (emphasis added); id. at 1138 (“we held the
search had not violated clearly established law
because . . .”) (emphasis added).
In dueling concurrences in an en banc decision
issued just last year, the same question reemerged. In
Dillard v. O’Kelley, the Eighth Circuit held that the
“uncertain status of the right to informational
privacy” meant that the defendants were entitled to
qualified immunity against a claim that they had
violated that right. 961 F.3d 1048, 1055 (8th Cir.
2020) (en banc), cert. denied, No. 20-670, 2021 WL
78198 (U.S. Jan. 11, 2021). “If a right does not clearly
exist, it cannot be clearly established.” Ibid.

15
Judge Colloton joined the majority opinion in full,
but he wrote individually “in response to the separate
opinions that follow[ed]” his. Id. at 1055 (Colloton, J.,
concurring). As he read those opinions, both took “the
view that court decisions rejecting a plaintiff ’s claim
of constitutional right can clearly establish a
constitutional right for the benefit of a future
plaintiff.” Ibid. And he believed the court had
“properly decline[d] to adopt that reasoning” because
courts typically cannot “in dicta create or recognize a
clearly established right.” Id. at 1055–56.3
In a separate concurring opinion, Judge Grasz
pushed back on that characterization of the dispute.
Id. at 1058 n.7 (Grasz, J., concurring in part and
concurring in the result). Judge Grasz agreed “that
obiter dictum is not binding law.” Ibid. But he added
that “the notion that recognition of a constitutional
right, analytical framework, or legal test is per se
dicta in a case where a violation of a constitutional
right is not found to have been successfully alleged
sweeps too broadly.” Ibid. “The legal standard applied
is not beyond the case.” Ibid. (cleaned up). “It is
essential to its determination.” Ibid. And Judge Grasz
was not aware of any “precedent standing for the
proposition that the legal standard employed by an
appellate court is not part of its holding unless it also
finds that a violation of that standard has occurred.”
Ibid. So courts can look to the reasoning of a prior
decision if it can be said that the reasoning is part of
that prior decision’s holding.

Judge Colloton allowed for “the likely exception of decisions
that declare a constitutional violation in a concrete case before
granting qualified immunity.” Id. at 1056.
3

16
“Given the conflicting views exhibited in [Dillard]
about how binding law is decreed, and how clearly
established rights are recognized,” Judge Colloton
urged that the issue deserves “renewed attention.” Id.
at 1057 (Colloton, J., concurring).
Two months after Dillard, the court below issued
its opinion in this case. App.1a. In her briefing,
Ashlyn had argued that the reasoning in the Eighth
Circuit’s Bowman decision “would have alerted
reasonable officials to the constitutional problems”
with Arkansas State’s “blanket [speech] policies.”
Appellant’s Reply Br. at 16. In Bowman, the Eighth
Circuit “rightly recognized that a university’s
requirement that a group ‘obtain a permit before
‘using’ outdoor space is a prior restraint on speech
against which there is a heavy presumption of
unconstitutionality.’” Appellant’s Opening Br. at 26
(quoting Bowman, 444 F.3d at 980). And that “heavy
presumption” had only been overcome in Bowman in
light of specific facts—a non-student speaker who
caused disruption by drawing large crowds—that
were not present here. Id. at 27. Thus, the outcome in
Bowman is “the exception to the clearly established
rule.” Ibid. And any reasonable official reading that
decision “should have easily recognized” that applying
Arkansas State’s speech codes to Ashlyn “does not fall
under that narrow exception and is prohibited.” Ibid.
In support, Ashlyn cited the Sixth Circuit’s en
banc decision in Bible Believers and quoted this
Court’s holding in Hope “that the ‘reasoning, though
not the holding’ of a prior case ‘gave fair warning to
respondents that their conduct crossed the line of
what is constitutionally permissible.’” Reply Br. at 16
(quoting Hope, 536 U.S. at 743). “Far from reading
Bowman as a blank check, reasonable officials would

17
have been ‘made to hesitate,’ Harlow v. Fitzgerald,
457 U.S. 800, 819 (1982), by Bowman’s reminder that
prior restraints carry a ‘heavy presumption of
unconstitutionality,’ and by its narrow ruling that the
presumption was overcome only ‘under the
circumstances’ there.” Ibid. (cleaned up).
The Bowman court also assessed—but ultimately
upheld—a policy that banned non-university entities
from speaking on campus “during so-called ‘dead
days’” to protect students’ “educational experience . . .
by preserving limited quiet study and exam-taking
time.” 444 F.3d at 982–83. Like the Tabling Policy
here, that policy “limit[ed] the designated forums to
certain classes of speakers.” Id. at 983. The Bowman
plaintiff argued that the dead-day ban was
“underinclusive” because it allowed speech by
university entities, which the plaintiff thought “could
be just as intrusive as speech by Non-University
Entities.” Ibid. Disagreeing, the Bowman court held
that it “was reasonable for the administration to
conclude that University Entities who do reserve
space in the designated forums on these dates are
more likely to be attuned to the special needs of the
university community during examination and
commencement periods, and thus less likely to
disrupt the campus during these sensitive times.”
Ibid. (cleaned up). For that reason, the court held that
the dead-day ban “passes constitutional muster.”
Ibid. But the reasoning supporting that holding
should have alerted the officials here that it was not
reasonable to distinguish between registered and
unregistered student groups when the only reason
given for the policy was to preserve Heritage Plaza as
the “living room of campus,” meaning a comfortable
place for students to spend their time. App.19a.

18
Absent any “renewed attention” to the debate that
had played out in Dillard, though, the court below
ignored Ashlyn’s argument—and this Court’s decision
in Hope—entirely, holding that because Bowman
ruled for the university defendants, “the defendants
[here] could have reasonably viewed Bowman as
permitting” Arkansas State University’s challenged
policy. App.19a. This was so, said the panel, even
though the University officials’ view of Bowman
“ignores the critical fact that the Bowman plaintiff
was a non-student, and the speech restrictions were
justified by compelling safety and administrative
concerns,” App.19a, and even though “none of those
factors are present here,” App.16a.
In other words, while the court recognized that
the defendants’ Tabling Policy violated Ashlyn’s
constitutional rights, and that their reading of
Bowman “ignores the critical fact[s]” that make up
the reasoning in Bowman, the court still held that
qualified immunity shields the defendants from
liability for their unconstitutional policies. App.19a.
That ruling overlooked that the “reasoning, though
not the holding,” of Bowman should have made it
“apparent” to reasonable university officials that the
speech policies challenged here violated the First
Amendment. Hope, 536 U.S. at 743. Thus, this case is
an ideal vehicle for resolving the circuit split over
whether the reasoning in a prior decision can supply
the required specificity, i.e., clearly established law,
for purposes of qualified immunity.

19
II. This Court also should grant review to
clarify how much factual specificity in a
prior case is required to overcome qualified
immunity in the First Amendment context.
The Eighth Circuit here also failed to ask the
“salient question . . . whether the state of the law”
gave the University officials “fair warning” that their
policies were unconstitutional. Hope, 536 U.S. at 741.
Instead, the court asked only whether the state of the
law had placed the constitutional question “beyond
debate.” App.18a, 19a, 21a.
“The Court’s language in Hope is clearly more
‘plaintiff-friendly,’ but since that decision, the ‘fair
warning’ formula has been virtually ignored by [this]
Court.” Karen Blum, Erwin Chemerinsky, & Martin
A. Schwartz, Qualified Immunity Developments: Not
Much Hope Left for Plaintiffs, 29 TOURO L. REV. 633,
654 (2013). In contrast, the “beyond debate” phrase
“appeared for the first time” in this Court’s 2011
decision in Ashcroft v. al-Kidd, 563 U.S. 731 (2011).
Kit Kinports, The Supreme Court’s Quiet Expansion
of Qualified Immunity, 100 MINN. L. REV. HEADNOTES
62, 66 (2016). And the Court applied it in “eight of the
eleven subsequent” opinions following al-Kidd in
which the Court held that “government officials did
not act in violation of clearly established law.” Ibid.
Without ever disavowing Hope’s test, then, this
Court’s phrasing in al-Kidd appears to have “raised
the bar for plaintiffs to overcome the clearlyestablished-law hurdle.” Blum, supra at 654. And
“[l]ower courts have taken note” of the Court’s
“conflicting messages” and its apparent “raising of the

20
qualified immunity bar.” Id. at 655.4 As a result,
“courts of appeals are divided—intractably—over
precisely what degree of factual similarity must
exist.” Zadeh v. Robinson, 928 F.3d 457, 479 (5th Cir.
2019) (Willett, J., concurring in part and dissenting in
part). When courts require a prior case with such
similar facts as to place the constitutional question
beyond debate, “qualified immunity smacks of
unqualified impunity, letting public officials duck
consequences for bad behavior—no matter how
palpably unreasonable—as long as they were the first
to behave badly.” Ibid.
This Court should resolve the tension between
these two competing standards by granting the
petition and holding that less factual specificity is
required outside the Fourth Amendment context.
“[S]pecificity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to
determine how the relevant legal doctrine . . . will
apply to the factual situation the officer confronts.”
Mullenix v. Luna, 577 U.S. 7, 12 (2015). Excessiveforce cases in particular involve “an area of the law in
which the result depends very much on the facts of
each case, and thus police officers are entitled to
qualified immunity unless existing precedent
squarely governs the specific facts at issue.” Kisela v.
Accord Daniel K. Siegel, Clearly Established Enough: The
Fourth Circuit’s New Approach to Qualified Immunity in Bellotte
v. Edwards, 90 N.C. L. REV. 1241, 1251–52 (2012) (discussing
the “apparent inconsistency” between Hope and Brosseau v.
Haugen, 543 U.S. 194 (2004), and the “variety of attempts among
the circuits to reconcile the two cases”).
4

21
Hughes, 138 S. Ct. 1148, 1153 (2018) (cleaned up). So,
it makes some sense that “overcoming qualified
immunity is especially difficult in [these] cases.”
Morrow, 917 F.3d at 876. Accord, e.g., A.N. by &
through Ponder v. Syling, 928 F.3d 1191, 1199 (10th
Cir. 2019).
Moreover, “excessive-force claims often turn on
split-second decisions to use lethal force.” Morrow,
917 F.3d at 876 (cleaned up). “That means the law
must be so clearly established that—in the blink of an
eye, in the middle of a high-speed chase—every
reasonable officer would know it immediately.” Ibid.
The flip side of those situations are cases like this
one—where “the range of reasonable judgments
naturally narrows by virtue of the officials’ increased
opportunity for reasoned reflection.” Dillard v. City of
Springdale, 930 F.3d 935, 945 (8th Cir. 2019), reh’g en
banc granted, opinion vacated (Oct. 17, 2019), on
reh’g en banc sub nom. Dillard v. O’Kelley, 961 F.3d
1048 (8th Cir. 2020), cert. denied, No. 20-670, 2021
WL 78198 (U.S. Jan. 11, 2021). The defendants here
are university officials who had years to review and
decide how to implement the unconstitutional speech
codes Ashlyn challenges. Nothing excuses their
failure to heed Bowman’s “fair warning” that their
policies were unconstitutional. Hope, 536 U.S. at 741.
But unless and until this Court “cabin[s]” its more
demanding “language to any particular context, these
general characterizations of the qualified immunity
defense” will continue to “place a thumb on the scales
favoring state actors in all cases, and not just in the
Fourth Amendment context.” Valdez v. Roybal, 186 F.
Supp. 3d 1197, 1273 (D.N.M. 2016).

22
III. Finally, this Court should grant review to
resolve a 3-1 circuit split over whether
school officials should be held to a higher
standard than other state officials.
The fact that all the defendants here are
university officials charged with adopting, reviewing,
and implementing the challenged policies—not the
officials or police officers charged with enforcing
them—presents an opportunity to resolve a different
circuit split over whether courts should treat school
officials differently than other government defendants for purposes of qualified immunity.
In Holloman ex rel. Holloman v. Harland, the
Eleventh Circuit rejected a qualified immunity
defense raised by the defendants—a high school
teacher and principal—holding that both had violated
the plaintiff student’s clearly established First
Amendment rights. 370 F.3d 1252, 1269–70, 1278–79
(11th Cir. 2004). Government officials are not “free of
the responsibility to put forth at least some mental
effort in applying a reasonably well-defined doctrinal
test to a particular situation.” Id. at 1278. And the
court did “not find it unreasonable to expect the
defendants—who hold themselves out as educators—
to be able to apply” the relevant legal standard
“notwithstanding the lack of a case with material
factual similarities.” Ibid. (emphasis added). Ashlyn
quoted this language from Holloman in her opening
brief. Opening Br. at 35 n.20. But the panel below
ignored it.
In contrast, the Fourth, Fifth, and Seventh
circuits have all staked out the opposite position in
qualified-immunity cases arising in the educational
context. See Abbott v. Pastides, 900 F.3d 160, 174 (4th

23
Cir. 2018) (“As we and other courts have recognized,
First Amendment parameters may be especially
difficult to discern in the school context.”); Morgan v.
Swanson, 755 F.3d 757, 760 (5th Cir. 2014) (“Where
there are no allegations of malice, there exists a
presumption in favor of qualified immunity for
officials in general, and for educators in particular.”)
(emphasis added); Hosty v. Carter, 412 F.3d 731, 739
(7th Cir. 2005) (noting that “[m]any aspects of the law
with respect to students’ speech . . . are difficult to
understand and apply”). As a result of that extra
measure of deference afforded to school officials by
many courts, the Fifth Circuit remarked in Morgan
that its “review of existing law reveal[ed] that
educators are rarely denied immunity from liability
arising out of First-Amendment disputes.” 755 F.3d
at 760 (emphasis added).
But college officials and administrators should be
held to a higher standard than police officers and
other state officials—not a lower one. The “university
is a traditional sphere of free expression” that is
“fundamental to the functioning of our society.” Rust
v. Sullivan, 500 U.S. 173, 200 (1991). Courts “do not
hold police officers to the same standard [they] would
apply to a law professor walking the beat.”
McGaughey v. City of Chicago, 664 F. Supp. 1131,
1138 (N.D. Ill. 1987), opinion vacated in part on
reconsideration, 690 F. Supp. 707 (N.D. Ill. 1988). But
the inverse should also be true: when professors and
other university officials are sued over policies that
violate their students’ constitutional rights, they
should be held to a higher standard than a police
officer “walking the beat.” Ibid. Courts and the
general public should be able to expect a broader
range of professional competence from school officials

24
at the university level. Accord Malley v. Briggs, 475
U.S. 335, 346 n.7 (1986) (framing the question as
whether the defendant police officer’s warrant
“request [was] outside the range of the professional
competence expected of an officer”). And given that
broader range of professional competence, university
officials should be held accountable when, as here,
applying even some mental effort to the relevant
caselaw would have given them “fair warning” that
their policies were unconstitutional. Hope, 536 U.S. at
741.
IV. This case is an ideal vehicle to resolve
circuit conflicts and provide much needed
clarity for a doctrine that allows officials
nationwide to violate the Constitution with
the appearance of impunity.
This case presents a compelling vehicle for the
Court to clarify or realign qualified immunity for five
reasons.
First, the governing legal standard was outcomedeterminative. The Eighth Circuit easily concluded
that the University officials violated the First Amendment. Yet the panel allowed the officials to escape
liability because it failed to acknowledge that
Bowman’s reasoning provided the required specificity
to show that the applicable law is clearly established.
This case thus places the circuit split directly before
the Court. Moreover, the Eighth Circuit’s
determination of a constitutional violation followed by
exculpation for the University officials displays the
unfairness of qualified immunity. Clarifying the
clearly established standard will take an important
step towards restoring public faith in constitutional
adjudication.

25
Second, the record cleanly frames the issues. The
district court ruled on a motion for summary judgment. The factual record is appropriately developed
and shows a textbook First Amendment violation. The
parties do not dispute any material facts. No
jurisdictional problems exist. And Ashlyn does not
appeal any legal issue besides qualified immunity. No
factual or legal roadblocks prevent this Court from
reaching the questions presented.
Third, this case involves a First Amendment
violation, not a fact-bound Fourth Amendment claim.
Perhaps a higher degree of specificity is needed in
Fourth Amendment cases where police officers face
unique situations involving split-second, life-or-death
decisions. Mullenix, 577 U.S. at 12. But the exact
opposite is true of First Amendment cases. Ashlyn’s
case involves no highly complex fact patterns or splitsecond decisions. Her speech about free markets and
individual liberty assuredly posed no lethal threat.
And Ashlyn did not even seek relief against the officer
and employees who told her to stop speaking—just
the officials responsible for the policies themselves.
Fourth, Respondents are college administrators
and trustees, and society should be able to expect
them to follow the Constitution. They had years to
adopt, debate, review, revise, amend, and implement
their speech policies. And they undoubtedly had time
for “reasoned reflection.” Dillard, 930 F.3d at 945.
Finally, further percolation would not help. As
outlined above, there is profound confusion in the
lower courts about the clearly-established standard.
Only this Court can clarify that standard, so there is
no opportunity for exploration or experimentation in
the lower courts. Certiorari is warranted.

26
CONCLUSION
The Court should grant the petition for writ of
certiorari.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org
DAVID A. CORTMAN
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
TYSON C. LANGHOFER
CHRISTOPHER P. SCHANDEVEL
MATHEW W. HOFFMANN
ALLIANCE DEFENDING
FREEDOM
20116 Ashbrook Place
Suite 250
Ashburn, VA 20147
(571) 707-4655

27

JANUARY 2021

ETHAN C. NOBLES
NOBLES LAW FIRM
149 S. Market
Benton, AR 72015
(501) 794-9742

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Eighth Circuit
Opinion in 19-3016
Issued August 31, 2020 ............................................ 1a
United States District Court
Eastern District of Arkansas
Opinion and Order in 3:17-CV-00327
Issued August 19, 2019 .......................................... 24a
United States District Court
Eastern District of Arkansas
Opinion and Order in 3:17-CV-00327
Issued March 23, 2018 ........................................... 60a

1a

United States Court of Appeals
For the Eighth Circuit
_____________________
No: 19-3016
_____________________
Turning Point USA at Arkansas State University;
Ashlyn Hoggard
Plaintiffs – Appellants
v.
Ron Rhodes, In his individual capacity (Originally
named in his individual and official capacities as
member of the Board of Trustees of the Arkansas
State University System); Tim Langford, Dr.,
Individual and official capacities as member of the
Board of Trustees of the Arkansas State University
System; Niel Crowson, Individual and official
capacities as member of the Board of Trustees of the
Arkansas State University System; Stacy Crawford,
Individual and official capacities as member of the
Board of Trustees of the Arkansas State University
System; Price C. Gardner, Individual and official
capacities as member of the Board of Trustees of the
Arkansas State University System; Charles L.
Welch, Individual and official capacities as member
of the Board of Trustees of the Arkansas State
University System; Kelly Damphousse, Chancellor of
Arkansas State University, in his individual and
official capacities; William Stripling, Vice Chancellor
for Student Affairs of Arkansas State University, in

2a
his individual and official capacities; Martha Spack,
Director of Student Development and Leadership for
Arkansas State University, in her individual and
official capacities; Christy Clark, In her official
capacity as a member of the Arkansas State
University System Board of Trustees (Originally
named as Ron Rhodes)
Defendants – Appellees
------------------------Speech First, Inc.; Young Americans for Liberty; The
National Legal Foundation; Pacific Justice Institute;
Cato Institute
Amici on Behalf of Appellants
______________________
Appeal from United States District Court
for the Eastern District of Arkansas – Jonesboro
______________________
Submitted: June 18, 2020
Filed: August 31, 2020
______________________
Before LOKEN and GRASZ, Circuit Judges, and
CLARK1, District Judge.
_____________________
The Honorable Stephen R. Clark, Sr., United States
District Judge for the Eastern District of Missouri, sitting by
designation.
1

3a
GRASZ, Circuit Judge.
Ashlyn Hoggard and Turning Point USA sued
Arkansas State University, its administrators, and its
trustees for violating their rights under the Free
Speech Clause of the First Amendment. The district
court2 granted summary judgment to the defendants.
We affirm.
I. Background
A. Factual Background
Just outside the Reng Student Union, Arkansas
State University student Ashlyn Hoggard set up a
small table. She was accompanied by Emily Parry, a
non-student representative for Turning Point USA
(“Turning Point”), an organization focused on
promoting free markets, limited government, and
individual liberty. Hoggard and Parry aimed to
recruit students for a local Turning Point chapter,
which they hoped could become a registered student
organization at Arkansas State. But in short order,
two University administrators, Sarah Ponder and
Elizabeth Rouse, approached the table to investigate.
Rouse told Hoggard and Parry they could not
“table” at their present location. (We will call this area
the “Union Patio.”) If Hoggard and Parry wanted to
set up a table and display their signage (“Free
Market, Free People,” “Big Government Sucks”),
Rouse explained, they could do so elsewhere —
specifically, in a campus “Free Expression Area,” one
The Honorable J. Leon Holmes, United States District
Judge for the Eastern District of Arkansas.
2

4a
of which was less than 100 yards away. In response,
Parry expressed her views about the constitutionality
of Free Expression Areas and other campus-speech
restrictions. University Police Officer Terry Phipps
quickly arrived at the scene and ordered Parry to
leave campus. Hoggard was told to take down her
table. Her recruiting efforts — at least at her Union
Patio informational table — were done for the day.
B. University Policies
Hoggard blames several University policies for
her inability to table at the Union Patio. She points to
three policies in particular, which we outline briefly
here.
Arkansas State University’s Freedom of
Expression Policy (“System Policy”) permits
individual Arkansas State University campuses —
including the Jonesboro campus Hoggard attended —
to establish “Free Expression Areas” and impose
reasonable time, place, and manner restrictions on
their use. It further explains that Arkansas State
“has not opened its campuses as public forums.”
The Jonesboro campus has its own Freedom of
Expression Policy (“Campus Policy”). It explains that
the Jonesboro campus “is not a public forum open for
assembly and expression of free speech.” But it
establishes several Free Expression Areas throughout campus, which can be used for speeches, demonstrations, and expressive activities. According to the
Campus Policy, anyone can use the Free Expression
Areas, regardless of viewpoint, so long as they get
advance permission and adhere to reasonable time,

5a
place, and manner restrictions. Other areas of
campus may be used for speeches, marches, and
demonstrations, so long as the University receives
advance notice and grants permission.
Finally, as an outgrowth of the Campus Policy,
the Jonesboro campus has an unwritten policy
restricting tabling at the Union Patio to registered
student organizations and University departments
(“Tabling Policy”). A student’s application to create a
registered student organization must be first
approved by the University. For approval, a student
organization seeking registration must have five
members, a faculty or staff advisor, and a constitution. And while the application form for an
organization to become registered indicates that only
registered student organizations and University
departments can use certain tables inside the Union,
it is silent on Union Patio tabling restrictions. It is
unclear whether the average Arkansas State student
even knew about this unwritten Tabling Policy.
C. Procedural History
Hoggard and Turning Point sued the University,
its trustees, and various administrators in federal
court. They sought injunctive relief under 42 U.S.C. §
1983, claiming both the System and Campus policies
violated due process and unconstitutionally infringed
upon freedoms guaranteed by the First Amendment.
Hoggard further alleged that the University trustees
and administrators were liable for damages.
In the midst of this litigation, the State of
Arkansas passed the Forming Open and Robust

6a
University Minds (FORUM) Act. See Ark. Code Ann.
§§ 6-60-1001 to 1010. According to this new law, state
universities cannot carve out “free speech zones” for
expressive conduct prohibited in other outdoor
campus areas; in effect, all outdoor campus areas are
“public forums” for students. Ark. Code Ann. § 6-601005. Arkansas State University, according to the
FORUM Act, must therefore permit more expressive
conduct than do the System and Campus Policies.3
Following this change in Arkansas law, the
district court granted the defendants’ motion for
summary judgment. According to the district court,
the passage of the FORUM Act mooted Hoggard’s
request for injunctive relief. The district court also
rejected Hoggard’s § 1983 due-process and FirstAmendment damages claims, finding that the
defendants were entitled to qualified immunity
because they had not violated a clearly established
right.4 Now, on appeal, Hoggard challenges the

We note that, while the Jonesboro campus’ Tabling Policy
is unwritten, the FORUM Act now requires speech regulations
be made “public in [universities’] handbooks, on their websites,
and through their orientation programs.” Ark. Code Ann. § 6-601007; see also § 6-60-1005 (requiring a state university’s time,
place, and manner restrictions on speech be “published” and
prohibiting them from preventing students from “spontaneously
and contemporaneously assembl[ing], speak[ing], and
distribut[ing] literature”).
3

The district court also determined that four of the
defendants — all University administrators — could not be held
liable, as they were not “individually involved in enforcing the
Policy against Hoggard.” Hoggard challenges this determination
on appeal. But because all remaining defendants are entitled to
qualified immunity (as we explain below), we need not decide
4

7a
district court’s ruling — she argues University administrators and trustees violated her clearly-established
constitutional right to free speech, and they are not,
therefore, immune from suit. Our analysis focuses
solely on whether the University’s administrators and
trustees can be liable for money damages under 42
U.S.C. § 1983.
II. Analysis
Section 1983 allows citizens to sue state officials
for violating their “rights, privileges, or immunities
secured by the Constitution and laws.” According to
Hoggard, the University administrators and trustees
(i.e., the state officials who created and enforced stateuniversity policies) violated her First Amendment
free speech rights and should be liable for her
damages.
The district court, however, granted summary
judgment to the defendants under the qualified
immunity doctrine. “Qualified immunity shields
public officials from liability for civil damages if their
conduct did not ‘violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.’” Dillard v. O’Kelley, 961 F.3d
1048, 1052 (8th Cir. 2020) (en banc) (quoting Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982)). We must
therefore determine “(1) whether the facts shown by
the plaintiff make out a violation of a constitutional
or statutory right, and (2) whether that right was
clearly established at the time of the defendant[s’]
whether these administrators were involved
otherwise be liable under § 1983.

enough to

8a
alleged misconduct.” Brown v. City of Golden Valley,
574 F.3d 491, 496 (8th Cir. 2009). And our analysis
will proceed in that order — we will first examine
whether Hoggard’s rights were violated and will then
turn to whether those rights were clearly established.
See Pearson v. Callahan, 555 U.S. 223, 236 (2009)
(“The judges of the district courts and the courts of
appeals should be permitted to exercise their sound
discretion in deciding which of the two prongs of the
qualified immunity analysis should be addressed first
. . . .”).
We review de novo the grant of summary
judgment and view the record and draw all
reasonable inferences therefrom in the nonmoving
party’s favor. Richardson v. Omaha Sch. Dist., 957
F.3d 869, 876 (8th Cir. 2020).
A. Violation of a Federal Statutory or
Constitutional Right
1. Forum Analysis
The First Amendment guarantees a right of free
speech. See U.S. Const. amend. I. But while the First
Amendment’s text prohibits laws “abridging the
freedom of speech,” the freedom of speech enjoyed by
citizens is not absolute. Ashcroft v. ACLU, 535 U.S.
564, 573 (2002). The Constitution does not give
Hoggard “unfettered latitude” to speak and set up
tables “wherever and whenever [s]he might choose.”
Ball v. City of Lincoln, 870 F.3d 722, 729 (8th Cir.
2017). Rather, the State of Arkansas, “no less than a
private owner of property, has the power to preserve
the property under its control for the use to which it

9a
is lawfully dedicated.” Id. (quoting United States v.
Grace, 461 U.S. 171, 178 (1983)). As such, the First
Amendment does not require Arkansas to “freely . . .
grant access to all who wish to exercise their right to
free speech” on its property “without regard to the
nature of the property or to the disruption that might
be caused by the speaker’s activities.” Id. (quoting
Cornelius v. NAACP Legal Def. & Educ. Fund, Inc.,
473 U.S. 788, 799–800 (1985)). Thus, the legality of
speech restrictions on state property “turns on the
nature of the property involved and the restrictions
imposed.” Id.
To determine the nature of the property involved,
we undertake a “forum analysis.” Bowman v. White,
444 F.3d 967, 974 (8th Cir. 2006). This is because the
law generally tolerates speech restrictions in some
forums to a greater extent than in others. For
example, the government’s ability to restrict speech is
sharply circumscribed in “traditional” and “unlimited
designated” public forums. Id. at 975–76. When an
area is traditionally open for free expression, or is
designated as a forum for all speakers and topics, we
subject speech restrictions in such areas to
heightened scrutiny. Id. At the opposite end of the
spectrum, some government property is “not by
tradition or designation a forum for expressive
activities by the public.” Ball, 870 F.3d at 730
(quoting Perry Educ. Ass’n v. Perry Local Educator’s
Ass’n, 460 U.S. 37, 46 (1983)). “The government
retains much broader discretion to restrict expressive
activities” in these “nonpublic forum[s].” Id.
The Union Patio, where Hoggard set up her
informational table, lies somewhere between these

10a
two extremes. The district court implied, and
Hoggard no longer contests, that the University had
“limit[ed] the expressive activity” permitted on the
Union Patio “to certain kinds of speakers or to the
discussion of certain subjects.” Bowman, 444 F.3d at
976 (quoting Make the Road By Walking, Inc. v.
Turner, 378 F.3d 133, 143 (2d Cir. 2004)). The Union
Patio is therefore a “limited designated public forum,”
in which speech restrictions must be “reasonable” and
“viewpoint neutral.” Id.
2. Restrictions at Issue
We must identify the restrictions in play before
we examine their reasonableness and neutrality. No
restriction specifically listed in the System or Campus
Policies was enforced against Hoggard. She was not
in a Free Expression Area. Nor did she attempt to set
up a table elsewhere. Nobody told her to leave
campus, or to quit talking about Turning Point and
its views. Rather, Hoggard was instructed to take
down her table because the Union Patio was reserved
for registered student organizations and University
departments. Only the unwritten Tabling Policy was
enforced against Hoggard, and thus, only the Tabling
Policy’s constitutionality is properly at issue.
According to unrebutted testimony, tabling at the
Union Patio is reserved for University departments
and registered student organizations. The application
form for registering a student organization requires
five members, a constitution, and an advisor. Such
requirements might constitute viewpoint discrimination if they could not be met due to an organization’s views. But that is not the case here. Hoggard

11a
does not allege viewpoint discrimination. And, at
least as applied to her, the Tabling Policy was not
viewpoint-discriminatory. True, the Tabling Policy
favors the viewpoints of officially-recognized groups
over unrecognized groups and individuals. But the
Supreme Court has described such favoritism as
status-based discrimination, rather than viewpointbased discrimination. Perry, 460 U.S. at 48–49.5 And
because status-based distinctions are “inherent and
inescapable” in limited public forums, “[t]he
touchstone for evaluating these distinctions is
whether they are reasonable in light of the purpose
which the forum at issue serves.” Id.
So our focus, in this case, is the Tabling Policy’s
reasonableness. Our inquiry takes into account “all
surrounding circumstances.” Powell v. Noble, 798
F.3d 690, 701 (8th Cir. 2015). In particular, we must
consider (1) the University trustees’ and administrators’ expertise in creating educational policies; (2)
the purpose served by the forum; and (3) the
alternative channels of communication available to
Hoggard in light of the policies. See id. (“A restriction
must be reasonable in light of the purpose which the
forum at issue serves and the reasonableness of a
restriction on access is supported when substantial
alternative channels remain open for the restricted
communication.”) (internal quotation and alteration
omitted); see also Widmar v. Vincent, 454 U.S. 263,
Again, this is not to say a policy favoring speech of
recognized groups could not be challenged on the basis of
viewpoint discrimination. If the group’s status (upon which
forum access is predicated) depends on what views it holds,
viewpoint-discrimination may be at issue. But that is not the
case here.
5

12a
276–77 (1981) (deferring to a university’s judgments
about academic affairs, while reviewing the
constitutionality of speech restrictions).
3. Educational Expertise
We will not “substitute our own notions of sound
educational policy for those of the school authorities
which we review.” Albright ex rel. Doe v. Mountain
Home Sch. Dist., 926 F.3d 942, 948 (8th Cir. 2019)
(quoting Special Sch. Dist. No. 1, Minneapolis Pub.
Sch. v. R.M.M. ex. rel. O.M., 861 F.3d 769, 771–72 (8th
Cir. 2017)). How, and whether, to run a registered
student organization program or to maintain the
Union Patio is largely up to the defendants’ discretion, which for the most part we leave unquestioned.
However, we retain authority to determine “whether
a public university has exceeded constitutional
constraints, and we owe no deference to universities
when we consider that question.” Christian Legal Soc.
Chapter of the Univ. of Cal., Hastings Coll. of the Law
v. Martinez, 561 U.S. 661, 686 (2010).
4. Justification of the Forum’s Restrictions in
Light of its Purpose
With this in mind, we turn to the defendants’
justification for the Tabling Policy. According to the
defendants, the Union Patio is “unique.” The
University’s policies “afford privileges to [registered
student] organizations to use that space,” which are
not afforded to other organizations and individuals.
The Union, defendants say, is the “living room of
campus.” It is where students eat, hang out, and
attend meetings. And so the area outside the Union

13a
— the Union Patio — is supposed to remain a comfortable area — an area in which students need not
worry about whether they’ll be harassed by pushy
buskers, hucksters, and pamphleteers.6
This might reasonably justify excluding nonUniversity individuals from speaking at the Union
Patio. Cf. Bowman, 444 F.3d at 980–83 (citing, as
reasons for speech restrictions, safety concerns about
persons unaffiliated with the university). But unlike
the plaintiff in Bowman, Hoggard was a student —
she belonged on campus. She was, to use the
defendants’ phrase, a “part of [the] campus community.” She presumably paid the Student Union Fees
supporting maintenance of the Student Union and
aspects of the registered student organization
program. We fail to see why restricting Union Patio
tabling to registered student organizations is any
more conducive to creating a “comfortable,” “livingroom” atmosphere within the Union than opening
Patio tabling to all students and groups thereof. The
First Amendment protects the rights of both groups
and individuals. See Healy v. James, 408 U.S. 169,
180–85 (1972) (requiring courts to examine First
Amendment implications when state colleges restrict
the speech and associational rights of non-recognized
student groups); see also McCutcheon v. FEC, 572
U.S. 185, 206 (2014) (“The whole point of the First
Amendment is to afford individuals protection
The defendants put forward no other justification for the
policy. We therefore assume, for purposes of this appeal, that no
other justification for the policy exists. Richardson, 957 F.3d at
876 (“We . . . view[ ] the record in the light most favorable to the
nonmoving party and draw[ ] all reasonable inferences in that
party’s favor”).
6

14a
against . . . infringements [on free speech in the name
of the public good].”) (emphasis added).
5. Availability of Alternative Forums
The record is unclear about the availability of
alternative forums. Part of the trouble is that the
Tabling Policy is unwritten. This, in itself, does not
pose a First Amendment problem. Families Achieving
Indep. & Respect v. Neb. Dep’t. of Soc. Servs., 111 F.3d
1408, 1415 (8th Cir. 1997) (en banc). The problem,
rather, comes from the Tabling Policy’s vagueness,
coupled with the ambiguities surrounding the
University’s enforcement of its speech policies. See id.
As an initial matter, nobody seems to know where the
Tabling Policy came from; it’s as if it simply emerged
from the bureaucratic aether. And while it is clear and
undisputed that tabling outside the Union is
restricted, the availability of alternative channels of
communication remains unclear. The deposition
testimony is loaded with murky questions and
murkier answers. Can two students sitting at a Union
Patio table talk to other students passing by?
According to one defendant, it depends on whether
their speech is “offensive.” Could a student group —
officially recognized or otherwise — approach other
students outside the Union Patio to talk politics?
Apparently, it “depends” on whether the University
receives complaints. What about distributing written
material? The Campus Policy does not mention the
Union Patio as an appropriate place for distribution,
but — as one defendant explained — registered
student organizations can distribute pamphlets there
while non-registered groups and individuals cannot.
In this light, one might reasonably infer, as we are

15a
required to do, that the availability of Hoggard’s
alternative communicative channels depended on the
“offensiveness” of Hoggard’s speech and how
University administrators chose to enforce the
unwritten and ambiguous aspects of the various
policies at play. See Richardson, 957 F.3d at 876 (“We
. . . view[ ] the record in the light most favorable to the
nonmoving party and draw[ ] all reasonable
inferences in that party’s favor.”); see also Minn.
Majority v. Mansky, 708 F.3d 1051, 1060 (8th Cir.
2013) (acknowledging potential § 1983 liability for
deliberate indifference toward a state policy’s
selective enforcement).
There are, of course, a few channels of
communication clearly available to Hoggard. Two
immediately come to mind. First, Hoggard, by herself
and without tables, signs, or literature, could have
approached individual students practically anywhere
on campus to discuss economic freedom, small government, and forming a Turning Point chapter. She could
have done this in person or through social media.
Second, she could have set up her table in a Free
Expression Area.
The first alternative amounts to little. Telling
Hoggard she can still associate with her peers to
discuss politics is not the same as providing an
alternative forum. Rather, it is simply a recognition
of her basic First Amendment rights.
The second alternative amounts to a
presumptively-unconstitutional prior restraint on
speech. See Bowman, 444 F.3d at 980 (finding a
university’s requirement of obtaining permission

16a
before using an unlimited designated public forum a
prior restraint, which bears the “heavy presumption
of unconstitutionality”). The Free Expression Areas
on campus are unlimited designated public forums,
but a speaker must get prior permission from the
school in order to use them. It is unclear how far in
advance this permission must be sought. Rouse told
Hoggard that 24-hour notice was required, but the
written System and Campus Policies say no such
thing. We recognize that we have upheld similar prior
restraints when a non-student’s speech, crowd
control, and safety concerns were at issue. Id. at 983.
But none of those factors are present here; Hoggard
was a student, and the defendants never cited crowd
control or safety to justify treating students representing registered student organizations differently
from their unaffiliated peers. We have not identified
a case in which we allowed a university to impose a
prior restraint on a student wishing to use an
unlimited public forum.
6. Constitutionality of Restrictions
When we consider these factors together, we find
that the Tabling Policy, as applied to Hoggard, is
unconstitutional. We defer to the defendants’
judgment about the importance of establishing a
space serving as the campus “living room,” as well as
their determination that students should feel
comfortable in the space in which they eat, meet, and
socialize. But this legitimate university interest bears
no rational relationship to the distinction between
registered student organizations and individual
students when it comes to using the Union Patio.
Compare Hoggard’s case to Perry, in which the

17a
Supreme Court upheld a limited-public-forum
restriction permitting mailroom access to one
teachers’ union but not another. 460 U.S. at 38–39.
The restriction in Perry was found reasonable, at least
in part, because of the two unions’ different
obligations and responsibilities — one exclusively
represented all the school district’s teachers, and the
other was a rival vying for support. Id. at 51–53. The
union serving as the teachers’ exclusive bargaining
representative had compelling reasons to use the
school’s mailroom that the other union did not. Id.
Unlike in Perry, registered student organizations do
not have obligations and responsibilities more
directly tied to the forum’s use than do individual
Arkansas State students.
In short, we cannot find the distinction between
registered student organizations and individual
students reasonable, when the sole justification
offered for the distinction provides no meaningful
reason for differentiating the two. At least in this
case, the (limited) availability of alternative forums
and the defendants’ educational expertise cannot
compensate for the weak justification (i.e., creating a
comfortable, living-room atmosphere) the defendants
offer for their status-based discrimination. This is not
to say, of course, that distinguishing between
registered student organizations, unregistered
organizations, and individual students is irrational
per se. Public schools are free to restrict forum access
when they have a nondiscriminatory reason for doing
so. See, e.g., Victory Through Jesus Sports Ministry
Found. v. Lee’s Summit R-7 Sch. Dist., 640 F.3d 329,
335 (8th Cir. 2011). There may be good reasons for
distinguishing between registered student organiza-

18a
tions and other members of the university community
for purposes of accessing a particular university
forum. But such reasons have not been presented in
this case. Thus, we conclude Hoggard put forward
sufficient facts to show a constitutional violation.
B. Clearly Established First Amendment
Rights
The ultimate success of Hoggard’s § 1983 claim,
however, depends on whether it was “sufficiently
clear that every reasonable official would have
understood” that, by preventing Hoggard from Union
Patio tabling, he or she was violating the First
Amendment. Reichle v. Howards, 566 U.S. 658, 664
(2012) (quotations and alterations omitted). That is,
we must determine whether the right violated by the
defendants was “clearly established” at the time of the
violation. Id. We do not “define clearly established law
at . . . a high level of generality.” Id. at 665 n.5
(quotation omitted). “Rather, we look for a controlling
case or ‘a robust consensus of cases of persuasive
authority.’ There need not be a prior case directly on
point, but ‘existing precedent must have placed the
statutory or constitutional question beyond debate.’”
Dillard, 961 F.3d at 1052 (internal citation omitted)
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741–42
(2011).
The rights at issue here — Hoggard’s rights under
the First Amendment — were not clearly established.
The case most closely on point, Bowman v. White, may
have given a reasonable impression that the Tabling
Policy was constitutionally acceptable. 444 F.3d 967.
While we find Bowman distinguishable from the case

19a
at hand, the scope of Hoggard’s First Amendment
right to “table” at the Union Patio was not “beyond
debate” on October 11, 2017. Dillard, 961 F.3d at
1052.
Bowman was also an Arkansas campus speech
case. In Bowman, we upheld several complained-of
speech restrictions imposed in an unlimited public
forum. 444 F.3d at 983. Given the stricter scrutiny
involved in unlimited-public-forum cases and the fact
that the case involved a presumptively-unconstitutional prior restraint, an official might have
reasonably believed the Tabling Policy — which
regulated a more loosely-scrutinized limited public
forum and did not directly involve a prior restraint —
was permissible. This view of Bowman, however,
ignores the critical fact that the Bowman plaintiff was
a non-student, and the speech restrictions were
justified by compelling safety and administrative
concerns. Id. at 980–83. Nonetheless, the defendants
could have reasonably viewed Bowman as permitting
the Tabling Policy; Bowman’s distinguishability does
not mean the defendants “knowingly violate[d] the
law.” Dillard, 961 F.3d at 1052 (quoting Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015)).
Hoggard cites other cases attempting to show the
First Amendment violation was “clearly established.”
But her cases are inapposite. Most of them simply do
not involve limited public forums, which insulates
against a reasonable official’s knowledge that
unjustified limited-public-forum distinctions between
students and registered student organizations are

20a
impermissible.7 Another of Hoggard’s cases, Thomas
v. Collins, involved a content-based restriction and
did not undertake a forum analysis. 323 U.S. 516
(1945). She also cites cases about officials allegedly
possessing overly-broad discretion to enforce speech
restrictions. See Douglas v. Brownell, 88 F.3d 1511,
1521–23 (8th Cir. 1996) (rejecting § 1983 plaintiff’s
similar arguments for lack of evidence of defendant’s
selective enforcement); see also Minn. Majority, 708
F.3d at 1060 (rejecting a selective-enforcement
argument because the plaintiff failed to allege
deliberate indifference to the selective enforcement).
But these overly-broad-discretion cases do not
“clearly establish” the Tabling Policy’s unconstitutionality, because the Tabling Policy’s unconstitutionality stems from its unjustified distinction
between registered student organizations and other

See Ball, 870 F.3d 722 (nonpublic forum’s restrictions
upheld); Boardley v. U.S. Dep’t of Interior, 615 F.3d 508, 516
(D.C. Cir. 2010) (public forum); Knowles v. City of Waco, 462 F.3d
430, 433 (5th Cir. 2006) (public forum); Santa Monica Food Not
Bombs v. City of Santa Monica, 450 F.3d 1022, 1032 (9th Cir.
2006) (designated public forum); Bowman, 444 F.3d 967
(designated public forum); Am.-Arab Anti-Discrimination
Comm. v. City of Dearborn, 418 F.3d 600, 604–05 (6th Cir. 2005)
(public forum); Burk v. Augusta-Richmond Cty., 365 F.3d 1247,
1249 (11th Cir. 2004) (public forum); Cmty for Creative NonViolence v. Turner, 893 F.2d 1387, 1391 (D.C. Cir. 1990) (public
forum); see also Douglas v. Brownell, 88 F.3d 1511, 1521 (8th Cir.
1996) (examining a prior restraint’s constitutionality and
whether a speech restriction was “narrowly tailored”); Rosen v.
Port of Portland, 641 F.2d 1243, 1246 (9th Cir. 1981) (examining
a prior restraint and applying “the most exacting scrutiny” to a
speech restriction).
7

21a
students, not from the way officials exercised their
discretion by enforcing it against Hoggard.
In short, Hoggard failed to identify “controlling
authority” or “a robust consensus of cases of persuasive authority” that “placed the . . . constitutional
question beyond debate at the time of the alleged
violation.” Kelsay v. Ernst, 933 F.3d 975, 979 (8th Cir.
2019) (en banc) (quoting al-Kidd, 563 U.S. at 741–42).
Her First Amendment right to access a limited public
forum, which she was unjustifiably denied, was not
“clearly established” at the time. Granting qualified
immunity was therefore appropriate.
III. Conclusion
We find that the Tabling Policy, as it was enforced
against Hoggard, violates the First Amendment. The
defendants’ restriction of Union Patio access to
registered student organizations has no rational
relationship to their proffered justification. As such,
the Tabling Policy’s enforcement against Hoggard on
October 11, 2017, was unreasonable and unconstitutional. But the defendants may reasonably have not
understood this at the time. We find the defendants
were properly granted qualified immunity and we
therefore affirm the district court’s grant of summary
judgment.
LOKEN, Circuit Judge, concurring.
I agree that defendants acting in their individual
capacities did not take action that violated Hoggard’s
clearly established First Amendment rights.
Therefore, defendants are entitled to qualified

22a
immunity from Hoggard’s § 1983 damage claims, the
only claims at issue on appeal. I join Part II.B. of the
court’s opinion and concur in the decision to affirm the
grant of summary judgment.
I cannot join Part II.A. because it ignores -explicitly in footnote 4 on page 5 -- the fundamental
principle that § 1983 damage liability is personal and
therefore Hoggard must prove that each “defendant’s
unconstitutional action was the ‘cause in fact’ of [her]
injury.” Clark v. Long, 255 F.3d 555, 559 (8th Cir.
2001) (quotation omitted); see Cox v. Sugg, 484 F.3d
1062, 1066 (8th Cir. 2007) (absolving university
administrators on this ground); see generally Doran
v. Eckold, 409 F.3d 958, 965 (8th Cir.) (en banc), cert.
denied, 546 U.S. 1032 (2005). As Hoggard presented
insufficient evidence of these defendants’ personal
involvement in denying her access to the Union Patio,
I would pass over the question of a constitutional
violation -- an issue largely if not entirely mooted
when Arkansas enacted the FORUM Act -- and
simply decide the appeal on the clearly established
issue.
The summary judgment record establishes that
Hoggard was poorly treated by Sarah Ponder and
Elizabeth Rouse, mid-level University administrators. In the modern university, it is all too common
for petits fonctionnaires, arbitrarily enforcing broad
rules and policies, to take action that may be
politically correct but is not viewpoint neutral. When
such actions trample a student’s constitutionally
protected right of free speech, those responsible
should be held accountable. But Hoggard did not sue
Ponder or Rouse, perhaps because Turning Point’s

23a
attorneys saw “bigger fish to fry” in a facial attack on
multiple University policies. The FORUM Act mooted
this cause célèbre. Plaintiffs labored on, now accusing
the highest ranking University trustees and
administrators of being personally involved in a
single episode in which their underlings applied an
unwritten Tabling Policy to deny student Hoggard
use of a table on the Union Patio to recruit other
students to join an as-yet unregistered student
organization. The court says their individual
involvement does not matter and proceeds to broadly
condemn a “policy” that, for all the record reveals,
may have been an ad hoc creation of Ponder and
Rouse to further their personal notions of what
student speech was appropriate for the “living room
of campus.” This is not our proper role in deciding
§ 1983 appeals raising sensitive constitutional issues.
I would agree with much, perhaps all, of the
court’s analysis in Part II.A. if the record established
that University policymakers authorized and
approved a Tabling Policy enforced to deter protected
student speech, like the action taken against
Hoggard. But Part II.A. addresses a hypothetical, not
this case. I therefore suggest that, as precedent, Part
II.A. be treated as a thoughtful but not controlling
advisory opinion.

24a
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
JONESBORO DIVISION
TURNING POINT USA
AT ARKANSAS STATE
UNIVERSITY;
and ASHLYN HOGGARD
v.

PLAINTIFFS

No. 3:17CV00327 JLH

RON RHODES, individually, et al.

DEFENDANTS

OPINION AND ORDER
This case presents a constitutional challenge to
the “Freedom of Expression” policy previously in force
at Arkansas State University campus in Jonesboro
and the concomitant system-wide policy, which were
repealed this spring.1 The Policy applied to faculty,
staff, students, student organizations, and visitors.
Document #40-10 at 3. It designated seven specific
areas of the ASU campus as “Free Expression Areas”
where individuals could schedule “speaking,
demonstrating, and other forms of expression” during
certain hours on Monday through Friday. A person
who wished to use other areas or other times for
“speeches and demonstrations” could request to do so
seventy-two hours or more in advance of the event.
The Policy also provided that written materials could
be distributed in specifically designated “distribution
The plaintiffs refer to these two policies as a single policy
being challenged and the Court will proceed likewise unless the
context indicates otherwise.
1

25a
areas,” including any of the Free Expression Areas.
No stands, tables, or booths were allowed in
distribution areas, except in the Free Expression
Areas, and only with permission from a specified
university official. Id. at 3-4.
In the fall of 2017 ASU student Ashlyn Hoggard
wanted to start a local chapter of Turning Point USA
on the ASU campus.2 Hoggard, along with Emily
Parry, a non-student representative of Turning Point
USA, set up a table on the edge of a large, open patio
area outside the Reng Student Union in Heritage
Plaza on ASU’s campus. They began speaking with
passing students in an attempt to recruit individuals
and start a local Turning Point USA chapter. Hoggard
and Parry had not requested permission from any
ASU official to set up the table or promote Turning
Point USA on the Heritage Plaza patio.
ASU student union administrators Sarah Ponder
and Elizabeth Rouse soon approached them, told
them that they were not allowed to set up a table
where they were, and instructed them to stop their
activities. Two ASU police officers, Terry Phipps and
Andrew Thrasher, arrived. After Parry engaged the
ASU employees verbally, Phipps issued Parry a
citation for violating the Policy and directed her to
leave campus. Hoggard and Parry took down their
table and stopped their promotion activities that day.

Turning Point USA is a national organization whose
mission is, in Hoggard’s words, to “[e]ducate students about the
importance of fiscal responsibility, free markets, and limited
government.” Document #35-7 at 2.
2

26a
Hoggard later succeeded in starting a chapter of the
organization at ASU.
This lawsuit commenced. Hoggard and Turning
Point USA at ASU sued several ASU officials in their
official capacities for injunctive and declaratory relief
and in their individual capacities for damages. The
plaintiffs claim under 42 U.S.C. § 1983 that the Policy
violates the first and fourteenth amendments to the
United States Constitution. They challenge the Policy
on its face and as it was applied to them. The
complaint named as defendants, in their official and
individual capacities, the following: Ron Rhodes, Tim
Langford, Niel Crowson, Stacy Crawford, and Price
Gardner, all members of the Board of Trustees of the
Arkansas State University System as of October
2017; Charles Welch, President of the ASU System;
Kelly Damphousse, Chancellor of ASU; William
Stripling, Vice Chancellor for Student Affairs of ASU;
and Martha Spack, Director of Student Development
and Leadership of ASU. In February, the Court
granted a motion to substitute a new member of the
Board, Christy Clark, in her official capacity for
former Board member Ron Rhodes in his official
capacity. Rhodes remains as a defendant in his
individual capacity only. Notably, the plaintiffs have
not named Ponder, Rouse, Phipps, or Thrasher as
defendants; nor is Parry a plaintiff.
As relief, the complaint requests a declaratory
judgment that the Policy and associated practices,
facially and as applied, violate the plaintiffs’ rights
under the first and fourteenth amendments; an
injunction prohibiting the defendants from enforcing

27a
the Policy and associated practices; compensatory and
nominal damages; and attorneys’ fees.
The defendants have moved to dismiss the case as
moot. The plaintiffs and the defendants have filed
cross motions for summary judgment. The Court held
oral argument on these motions. The defendants also
have filed a supplemental motion for summary
judgment addressing an issue that came up at the
oral argument—whether the trustees can be
individually liable for failing to repeal the Policy. For
the reasons that will be explained, the motion to
dismiss as moot is granted on all claims except the
claim against the defendants in their individual
capacities for nominal damages. Based on the
doctrine of qualified immunity, summary judgment is
granted in favor of the defendants on that claim.
MOTION TO DISMISS
Article III of the United States Constitution
authorizes federal courts to hear cases and
controversies. A case is moot, and no longer a case or
controversy, when the issues presented are no longer
live or the parties no longer have a legally cognizable
interest in the outcome. Teague v. Cooper, 720 F.3d
973, 976 (8th Cir. 2013) (quoting Already, LLC v.
Nike, Inc., 568 U.S. 85, 91, 133 S. Ct. 721, 726, 184 L.
Ed. 2d 553 (2013)). “Through the passage of time and
the occurrence of irrevocable events, disputes may
disappear so that federal courts no longer can grant
effective relief.” McFarlin v. Newport Special Sch.
Dist., 980 F.2d 1208, 1210 (8th Cir. 1992).

28a
A request for injunctive relief is moot if the
injunctive relief sought would no longer have any
meaning for the party seeking it. See Forbes v. Ark.
Educ. Television Comm. Network Found., 982 F.2d
289, 289 (8th Cir. 1992) (per curiam); McFarlin, 980
F.2d at 1210. Likewise, for a federal court to issue a
declaratory judgment, the dispute must call not for an
advisory opinion upon a hypothetical basis, but for an
adjudication of present right upon established facts.
Webb v. Smith, 2018 WL 1401315, at *3,
4:17CV00660-JLH (E.D. Ark. Mar. 20, 2018) (quoting
Ashcroft v. Mattis, 431 U.S. 171, 172, 97 S. Ct. 1739,
1740, 52 L. Ed. 2d 219 (1977)). If, therefore, a law has
been amended or repealed, claims for injunctive or
declaratory relief based on the previous version of the
law are generally moot because there is no longer a
need for court action. Phelps-Roper v. City of
Manchester, 697 F.3d 678, 687 (8th Cir. 2012) (en
banc). The exceptions to this rule are “rare and
typically involve situations where it is virtually
certain that the repealed law will be reenacted.”
Teague, 720 F.3d at 977.
Here, the plaintiffs ask the Court to enjoin the
defendants from enforcing the Policy. Document #1 at
20. They also seek a declaratory judgment that the
Policy and associated practices violate their
constitutional rights. Id. Their requests for injunctive
and declaratory relief revolve entirely around the
Policy and ASU’s enforcement of the Policy.
As the Court previously mentioned, however, the
Policy has been repealed. In March the Arkansas

29a
General Assembly passed the FORUM Act,3 which
prohibits state-supported universities from limiting
expressive activities to only designated areas. Soon
afterwards, the ASU Board of Trustees repealed the
Policy. Document #57-2. The defendants contend that
the case is therefore moot.
There is no reasonable expectation that the Board
will reenact the earlier version—doing so would
violate the FORUM Act. See Phelps-Roper, 697 F.3d
at 687. Nor is there any evidence that the state will
repeal the FORUM Act. See Teague, 720 F.3d at 97778. An injunction prohibiting the defendants from
enforcing the Policy thus would have no meaning
because the Policy is no longer in effect and cannot be
enforced against the plaintiffs or anyone else. A
declaratory judgment would not adjudicate the
parties’ present rights pertaining to the Policy
because it no longer exists and no one has any rights
under it. The plaintiffs’ claims for declaratory and
injunctive relief are moot. As the claims against the
defendants in their official capacities sought only
declaratory and injunctive relief, all official-capacity
claims are dismissed.
All the plaintiffs’ facial challenges to the former
Policy are also moot. See Phelps-Roper, 697 F.3d at
687. When a statute, ordinance or policy has been
repealed, a plaintiff’s facial challenge to it could
remedy nothing — she is in no jeopardy that it will be
enforced against her, and she has no legally
The full title of the act is “Forming Open and Robust
University Minds (FORUM) Act,” 2019 Ark. Acts 184. It is
codified at Ark. Code Ann. § 6-60-1001, et seq.
3

30a
cognizable interest in its constitutionality. In PhelpsRoper, the plaintiff’s facial challenge to previous
versions of a city ordinance became moot after the city
amended it. Id. at 687. The court held that even the
plaintiffs’ “request for nominal damages does not give
them standing to challenge the first two versions of
the ordinance because they cannot revive an
otherwise moot claim against ‘a regime no longer in
existence.’” Id. (quoting Morrison v. Bd. of Educ., 521
F.3d 602, 611 (6th Cir. 2008)). Many other courts have
dismissed facial challenges as moot based on changed
circumstances. Reyes v. City of Lynchburg, 300 F.3d
449, 453 (4th Cir. 2002) (holding that after ordinance
was repealed “[t]he question of overbreadth [did] not
present a live case or controversy” and the facial
overbreadth challenge was moot); Advantage Media,
LLC v. City of Eden Prairie, 405 F. Supp. 2d 1037,
1046 n.5 (D. Minn. 2005) (“Further, the [challenged]
provisions were removed from the code . . . which
renders plaintiff’s facial challenge and corresponding
request for injunctive relief moot.” (citing Coral
Springs St. Sys., Inc. v. Sunrise, 371 F.3d 1320, 1346
(11th Cir. 2004); Utah Animal Rights Coal. v. Salt
Lake City Corp., 371 F.3d 1248, 1256–57 (10th Cir.
2004))); Phelps-Roper v. Heineman, 710 F. Supp. 2d
890, 908-09 (D. Neb. 2010) (dismissing as moot facial
challenge to statute because there was no risk it could
be applied to the plaintiff); Rock for Life-UMBC v.
Hrabowski, 643 F. Supp. 2d 729, 741 (D. Md. 2009)
(dismissing as moot a facial challenge to the
constitutionality of a university policy amended after
litigation commenced); Roberts v. Haragan, 346 F.
Supp. 2d 853, 867 n.5 (N.D. Tex. 2004) (same). The

31a
facial challenges to the former Policy are moot and
therefore dismissed.
The defendants argue that the plaintiffs’ claims
for damages also are moot. It is well established that
changed circumstances do not render moot claims for
damages that arise from violations of the plaintiff’s
own constitutional rights. See Advantage Media, LLC
v. City of Eden Prairie, 456 F.3d 793, 803 (8th Cir.
2006); see also Watlington v. City of McCrory, Ark.,
2:17CV00002-DPM, Document #31, (E.D. Ark. Aug. 3,
2017). In Advantage Media, the city amended its
municipal sign code after Advantage sued the city for
denying its sign permit application. Because the
alleged deficiencies in the code were remedied after
the action commenced, the request for injunctive
relief was moot. Id. at 803. Advantage had standing
however because, as the Eighth Circuit explained,
“Advantage might be entitled to nominal damages if
it could show that it was subjected to unconstitutional
procedures.” Id. Similarly, in Watlington, the city
repealed the challenged ordinance soon after the
plaintiffs filed their complaint, making the plaintiffs’
request for injunctive relief moot, but Judge Marshall
explained that the entire case was not moot inasmuch
as the plaintiffs sought damages for the police chief’s
enforcement of the allegedly unconstitutional
ordinance against them. Watlington, 2:17CV00002,
Document #31 at 2.
These cases and others stand for the proposition
that even if changed circumstances render a request
for injunctive relief moot, the case itself is not moot if
the plaintiff could recover damages—even nominal
damages—for a constitutional violation. See also

32a
Stevenson v. Blytheville Sch. Dist. No. 5, 800 F.3d 955,
964-65 (8th Cir. 2015) (although the Arkansas
General Assembly amended the statute at issue,
mooting the claim for injunctive relief, “the appellants
could potentially recover money damages for any
constitutional violation arising from” a violation of
the former statute) (citing Brandywine, Inc. v. City of
Richmond, 359 F.3d 830, 836 (6th Cir. 2004));
McFarlin, 980 F.2d at 1211 (although student’s
graduation rendered her claim for preliminary
injunctive relief moot, the entire case was not moot
because plaintiffs could “advance the damages claim
on behalf of their daughter against the defendants for
allegedly depriving [their daughter] of civil rights”);
Forbes, 982 F.2d at 289 (“The underlying case is not
moot. The complaint contains a prayer for money
damages.”).
In this case, the complaint seeks damages from all
remaining defendants in their individual capacities.
Document #1 at 21. Accordingly, the passage of the
FORUM Act and the Board’s subsequent repeal of the
Policy does not moot the claim for damages caused by
its enforcement.4

The defendants briefly argue that the Policy was not
applied to Hoggard. Document #36 at 38-39. This argument fails
at the summary judgment stage. The University officials who
directed Hoggard and Parry to stop their activities informed
them that they could do what they were doing only by reserving
a “free speech area” — which the Policy allows for. Document #16; Document #40-3 at 0:35-2:25 (video recording). Taking these
facts in the light most favorable to Hoggard, the Policy was
applied to her.
4

33a
The defendants next argue that Hoggard’s claim
for compensatory damages is foreclosed because she
disclaimed any interest in compensatory damages in
her deposition. Document #58 at 6. If a party
abandons a claim for compensatory damages, the
former claim cannot rescue an otherwise moot case.
See 13C Charles Alan Wright, Arthur R. Miller, &
Edward Cooper, Federal Practice & Procedure
§ 3533.3 (3d ed.). At her deposition Hoggard was
repeatedly asked whether she wanted monetary
damages from this lawsuit. She ultimately answered
“no, I just want the policy changed.” Document #35-1
at 41.
Assuming, without deciding, that Hoggard’s
deposition testimony amounts to abandonment of
compensatory damages,5 her claim is not moot
because the complaint also seeks nominal damages.
Even a claim for nominal damages for constitutional
violations suffices to avoid mootness. See Advantage
Media, LLC, 456 F.3d at 803 (challenges were not
moot because plaintiff “might be entitled to nominal
damages if it could show that it was subjected to
unconstitutional procedures”); see also 13A Federal
Practice & Procedure § 3533.3 (“The very determination that nominal damages are an appropriate
remedy for a particular wrong implies a ruling that
the wrong is worthy of vindication by an essentially
declaratory judgment. A valid claim for nominal

The Court notes that in her response to the motion to
dismiss, Hoggard, through her attorneys, states that she still
seeks damages. Document #61 at 10, 15-16.
5

34a
damages
omitted).

should

avoid

mootness.”)

(footnotes

The defendants argue that Advantage Media was
implicitly overruled by Phelps-Roper, where the
Eighth Circuit said that a claim for nominal damages
did not give the plaintiffs standing to challenge on
free-speech grounds repealed versions of an
ordinance, stating that a request for nominal
damages does not “revive an otherwise moot claim
against ‘a regime no longer in existence.’” PhelpsRoper, 697 F.3d at 687 (quoting Morrison, 521 F.3d at
611). Although the Phelps-Roper opinion can be read
to say that a request for nominal damages never
preserves a challenge to a repealed law from mootness, the facts in Phelps-Roper, and in Morrison, are
distinguishable from the facts here. In Phelps-Roper,
the plaintiffs never engaged in any picketing that
would have been prohibited. See Phelps-Roper, 697
F.3d at 685. Likewise, in Morrison, the plaintiff never
engaged in speech prohibited by the school policy at
issue. Morrison, 521 F.3d at 605. In both cases, the asapplied claim was based only on the allegation that
the plaintiffs’ free speech rights had been chilled, not
that the allegedly unconstitutional ordinance or
policy had been enforced against the plaintiffs. In
Advantage Media, the ordinance was enforced against
the plaintiff.
Thus, Advantage Media and Phelps-Roper can be
reconciled as follows: Advantage Media stands for the
proposition that when a statute, ordinance or policy
has been enforced against a plaintiff, repeal of the
policy does not moot the plaintiffs’ as-applied claim
for nominal damages; whereas Phelps-Roper stands

35a
for the proposition that when a statute, ordinance or
policy has not been enforced against a plaintiff, repeal
of the policy moots the plaintiffs’ as-applied claim for
nominal damages. As the Sixth Circuit said in
Morrison, “No readily apparent theory emerges as to
how nominal damages might redress past chill.”
Morrison, 521 F.3d at 610. Here, as in Advantage
Media, the now-repealed ASU Policy was enforced
against Hoggard. If the Policy was unconstitutional,
her constitutional rights were violated. Because the
facts of Phelps-Roper and the facts of Advantage
Media are distinguishable, and because the Eighth
Circuit did not explicitly overrule Advantage Media,
Advantage Media remains binding precedent; and it
is directly on point, whereas Phelps-Roper is not.
The defendants’ motion to dismiss on mootness
grounds is granted in part and denied in part. The
plaintiffs’ claims for injunctive and declaratory relief
are moot and therefore dismissed. All claims against
the defendants in their official capacities are
correspondingly dismissed. The plaintiffs’ claims
challenging the Policy on its face are dismissed. The
plaintiffs’ claim for nominal damages for the
enforcement of the Policy against them is not moot.
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT
Remaining are challenges to the former Policy as
it was applied to the plaintiffs. The remaining
defendants are the individual members of the ASU
Board of Trustees as of October 11, 2017, in their
individual capacities: Ron Rhodes, Tim Langford,
Niel Crowson, Stacy Crawford, and Price Gardner;

36a
Charles Welch, the President of the ASU system;
Kelly Damphousse, Chancellor of ASU; William
Stripling, Vice Chancellor for Student Affairs of ASU;
and Martha Spack, Director of Student Development
and Leadership at ASU.
A court should enter summary judgment if the
evidence, viewed in the light most favorable to the
nonmoving party, demonstrates that there is no
genuine dispute as to any material fact and that the
moving party is entitled to judgment as a matter of
law. Fed. R. Civ. P. 56(a); see also Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 249-50, 106 S. Ct. 2505,
2511, 91 L. Ed. 2d 202 (1986); Torgerson v. City of
Rochester, 643 F.3d 1031, 1042 (8th Cir. 2011) (en
banc). A genuine dispute of material fact exists only if
the evidence is sufficient to allow a jury to return a
verdict for the nonmoving party. Anderson, 477 U.S.
at 249, 106 S. Ct. at 2511. A movant is entitled to
summary judgment “against a party who fails to
make a showing sufficient to establish the existence
of an element essential to that party’s case, and on
which that party will bear the burden of proof at
trial.” Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106
S. Ct. 2548, 2552, 91 L. Ed. 2d 265 (1986). A moving
party may satisfy its initial burden by pointing out to
the district court that the nonmoving party lacks the
evidence to prove an essential element of its case.
Bedford v. Doe, 880 F.3d 993, 996-97 (8th Cir. 2018).
If this burden is satisfied, the nonmoving party must
submit evidentiary materials of specific facts showing
the presence of a genuine dispute for trial, such that
a jury could reasonably find in that party’s favor. See
id. at 997.

37a
The defendants first argue that they are entitled
to summary judgment because none of them was
personally involved in causing the alleged injuries.
Document #36 at 39-40. To establish that a state
official is personally liable under section 1983, a
plaintiff must prove that the official acting under
color of state law caused the deprivation of the
plaintiff’s constitutional right. 42 U.S.C. § 1983; see
Clay v. Conlee, 815 F.2d 1164, 1169-70 (8th Cir. 1987).
Vicarious liability does not apply, so a plaintiff must
prove that each defendant’s individual actions
violated the constitution. Ashcroft v. Iqbal, 556 U.S.
662, 676, 129 S. Ct. 1937, 1948, 173 L. Ed. 2d 868
(2009); Parrish v. Ball, 594 F.3d 993, 1001 (8th Cir.
2010).
The defendants point out that none of them was
personally involved in enforcing the Policy against
Hoggard. Document #36 at 39-40; Documents #67 and
68. No evidence shows that any of the defendants
created or authored the Policy at issue, nor does
evidence show that any of them applied it against
Hoggard. No defendant was present at the incident
with Hoggard and Parry. No defendant received,
processed, or denied a request by Hoggard to use the
area. None of them directly or indirectly ordered
Hoggard and Parry to cease their activities and for
Parry to leave campus. The Court must therefore
consider whether the conduct by the individual
defendants
as
administrators
and
trustees
constituted sufficient personal involvement in the
plaintiffs’ injuries.

38a
Defendants Welch, Damphousse, Stripling, and
Spack
The claims against administrators Welch,
Damphousse, Stripling, and Spack rest on their
responsibility and authority for enforcing ASU
policies. Document #1 at ¶¶ 34, 41, 48, and 58.
General supervisory authority over a state entity’s
operations, alone, is insufficient to connect a state
official to a plaintiff's injury under section 1983.
Jackson v. Nixon, 747 F.3d 537, 545 (8th Cir. 2014).
At least one federal court has held that a university
administrator’s liability cannot rest simply on the
administrator’s “ultimate responsibility for all
policies promulgated by” the university. See Rock for
Life-UMBC, 643 F. Supp. 2d at 742.
In response to the defendants’ motion for
summary judgment, the plaintiffs contend that the
administrator defendants were personally involved in
the alleged deprivation of Hoggard’s constitutional
rights because they authorized the Policy’s enforcement generally. Document #49 at 48. Specifically, the
plaintiffs note that defendants Stripling and Spack
were responsible for enforcing the policy—Spack’s
office reviewed free speech area reservation requests,
and Spack reported to Stripling, the Vice Chancellor
for Student Affairs. Id. (citing, e.g., Document #35-3
at 5; Document #35-2 at 3). The plaintiffs do not
explain how defendants Welch and Damphousse are
personally responsible for Hoggard’s alleged injury,
nor do they point to any evidence connecting them to
it.

39a
The Policy required use of Free Expression Areas
to be scheduled, and for certain requests to be made,
through the Vice Chancellor for Student Affairs or the
Director of Student Development and Leadership.
Document #1-3 at 2-3. As of October 11, 2017, those
individuals were Stripling and Spack. That these two
individuals were charged with approving and scheduling reservations of Free Expression Areas might
connect them to a reservation denial. But Hoggard
admitted in her deposition that she never made a
request to either Stripling or Spack to engage in any
expressive activity on the ASU campus.
Nothing in the record shows that Stripling,
Spack, Welch, or Damphousse was individually
involved in enforcing the Policy against Hoggard.
Because the plaintiffs have not shown that any of
these individuals caused a deprivation of their constitutional rights, summary judgment must be granted
on all claims in favor of Stripling, Spack, Welch, and
Damphousse.
Defendants Rhodes, Langford, Crowson,
Crawford, and Gardner
The plaintiffs’ claims against the members of the
Board of Trustees, in their individual capacities, rest
on the trustees’ policymaking authority for the ASU
system. Document #1 at ¶¶ 25-29. A state official may
be liable if he creates, applies, or interprets a policy
or directive that leads to a constitutional violation.
Jackson, 747 F.3d at 543-45 (citing Bonner v. Outlaw,
552 F.3d 673, 679 (8th Cir. 2009)); Marchant v. City
of Little Rock, Ark., 741 F.2d 201, 205 (8th Cir. 1984).
See also Messimer v. Lockhart, 702 F.2d 729, 732 (8th

40a
Cir. 1983) (holding that a department of corrections
director may be liable for failing to change a
particular prison’s allegedly unconstitutional policy
based on the director’s statutory responsibility to
supervise the administration of all corrections
facilities). Cf. Brown v. Mo. Dep’t of Corr., 353 F.3d
1038, 1040 (8th Cir. 2004) (dismissing supervisory
employees because the complaint did not allege “facts
that would suggest personal involvement, tacit
authorization, or a policy directive” for the conduct at
issue).
The ASU Policy originated in 1998. See, e.g.,
Document #40-10 at 5; Document #40-9 at 17. None of
the individual trustee defendants was involved in
authoring or approving the Policy because none was
on the Board of Trustees at that time. Document #671 at 2.
At a June 23, 2009, Board of Trustees meeting,
however, Rhodes moved for the Board to adopt an
ASU system-wide policy governing the establishment
of free expression policies on each campus within the
ASU system. Document #69-1 at 3. The Board
adopted that system-wide policy as one of many
system policies it adopted shortly after the Arkansas
State University System came into being.6 Document
#40-9 at 12, 18. The June 2009 system policy required
each ASU campus to establish procedures governing
freedom of expression. Document #69-1 at 7.

None of the current Board defendants other than Rhodes
was on the Board of Trustees in 2009. Document #67-1 at 2.
6

41a
The plaintiffs’ complaint mentions this ASU
system policy and included the system-wide policy as
an exhibit. Document #1-2. The complaint states that
ASU enacted the Freedom of Expression Policy at
issue in this case “[a]s mandated by the ASU System”
policy. Document #1 at ¶ 77. Thereafter, the complaint states that it refers to the two policies
“collectively” as one “Speech Zone Policy” that is being
challenged. Id. The complaint therefore seems to
assume that the 2009 ASU system-wide policy caused
the enactment of the Policy at ASU Jonesboro or
otherwise caused the plaintiffs’ alleged harm.7
By the time the system-wide policy came into
being, however, the Freedom of Expression Policy had
existed at ASU Jonesboro for more than a decade.
There is no evidence that the 2009 system-wide policy
led to any changes to the campus policy. Although the
2009 system-wide policy states that it supercedes the
1998 policy, see id. at 9, the record reflects that the
ASU policy remained in place and that the relevant
ASU officials continued to use it without interruption
to schedule reservations of Freedom of Expression
Areas on the ASU campus. See Document #40-9 at 9Other than this assumed connection between the two
policies, the system policy itself is not meaningfully challenged
in this case. At the summary judgment stage the plaintiffs only
mention the Policy at ASU and in fact refer to it, and only it, as
the “Speech Zone Policy” being challenged. E.g., Document #41
at 9 (plaintiff’s motion); Document #49 at 9 (plaintiff’s response
to defendants’ motion). Only in response to the defendants’
supplemental motion for summary judgment do the plaintiffs
state that “[t]he ASU System Speech Zone Policy and the ASU
Speech Zone Policy comprised the “Speech Zone Policy”
challenged by Plaintiffs in their complaint and enforced by
Defendants to suppress Plaintiffs’ speech.” Document #68.
7

42a
18; Document #40-11 at 7-10. Assuming, however,
that Rhodes’s participation in the adoption of the
system-wide policy is sufficient personal involvement
to render him potentially liable, for reasons that will
be explained, he is protected by qualified immunity.
Aside from Rhodes, the plaintiffs have not pointed
to any specific actions taken by the individual Board
of Trustee members—other than generally failing to
repeal the Policy—that connects them to its
enforcement against Hoggard. Their claims therefore
turn on whether the individual trustees can be held
liable based on their failure as general ASU
policymakers to repeal the Policy.
In Messimer v. Lockhart, the plaintiff claimed
that a prison warden’s policy of confining protective
custody inmates together violated his constitutional
rights. 702 F.2d at 732. Under state law, the state
department of corrections director had the statutory
authority to change the policy. Id. The Eighth Circuit
held that the complaint stated a claim against the
director who “may be responsible for his own failure
to act.” Id. The Messimer case has not been overruled
and has been relied on for the same proposition as
recently as 2014. See Jackson, 747 F.3d at 544
(holding that complaint alleged sufficient personal
involvement as to the Missouri Department of
Corrections director based on his statutory
responsibility to implement and enforce the policies
at issue); see also Langford v. Norris, 614 F.3d 445,
464 (8th Cir. 2010) (explaining that defendants who
designed or oversaw the prison medical grievance
procedure could be liable if the unwieldy procedure

43a
caused the denial of constitutionally adequate
treatment).
Arkansas law charges the Board of Trustees with
the management and control of ASU. Ark. Code Ann.
§ 6-65-202. The bylaws of the Board of Trustees
provide the same, and they identify further functions
of the Board of Trustees in its exercise of that
management and control. Document #40-7 at 3.
According to the bylaws the Board of Trustees must,
among many other things, “determine major policy,”
“review existing policy,” and “[e]stablish substantive
institutional policy for the operation of” ASU. Id. The
Messimer, Jackson, and Langford cases are not
precisely on point because they involved prison
policies and operations, but they lend support to the
theory that the individual trustees were sufficiently
personally involved in injuries caused by the ASU
Policy based merely on their duty to determine,
review, and establish policies for ASU.
Assuming, for the purposes of the defendants’
motion for summary judgment, that the trustees were
personally involved in causing Hoggard’s alleged
injuries, they are nevertheless entitled to summary
judgment on the basis of qualified immunity.
The defense of qualified immunity protects
government officials who act reasonably. The rule
serves “to excuse an officer who makes a reasonable
mistake in the exercise of his official duties.” Dillard
v. City of Springdale, 930 F.3d 935, ____ (8th Cir.
2019) (quoting Edwards v. Baer, 863 F.2d 606, 607
(8th Cir. 1988)). It attaches so long as the official did
not violate a clearly established right of which a

44a
reasonable person standing in the official’s shoes
would have known. Estate of Walker v. Wallace, 881
F.3d 1056, 1060 (8th Cir. 2018); Robinson v. Payton,
791 F.3d 824, 830 (8th Cir. 2015).
At the summary judgment stage the plaintiff
bears the burden to show that the facts, viewed in her
favor, demonstrate the deprivation of a constitutional
or statutory right that was clearly established at the
time of the deprivation. Parrish, 594 F.3d at 1001. An
individual government official is entitled to qualified
immunity if no genuine dispute of material fact exists
“regarding whether the officials’ actions, even if
unlawful, were objectively reasonable ‘in light of the
legal rules that were clearly established at the time
[their actions were] taken.’” Id. (quoting Davis v. Hall,
375 F.3d 703, 711 (8th Cir. 2004)). Courts may
exercise their discretion in deciding whether to first
address whether the facts make out a deprivation of a
constitutional right or whether the right was clearly
established. See Pearson v. Callahan, 555 U.S. 223,
242, 129 S. Ct. 808, 821, 172 L. Ed. 2d 565 (2009);
Morgan v. Robinson, 920 F.3d 521, 524-27 (8th Cir.
2019) (en banc).
A right is clearly established if it is “sufficiently
clear that every reasonable official would have
understood that what he is doing violates that right.”
Morgan, 920 F.3d at 524. Although the official’s very
action need not have previously been held unlawful,
in light of preexisting law the unlawfulness of the
official’s action must be apparent. Hope v. Pelzer, 536
U.S. 730, 739, 122 S. Ct. 2508, 2515, 153 L. Ed. 2d 666
(2002). “This requires a high ‘degree of specificity.’”
District of Columbia v. Wesby, ___ U.S. ___, 138 S. Ct.

45a
577, 590, 199 L. Ed. 2d 453 (2018) (quoting Mullenix
v. Luna, 577 U.S. ___, 136 S. Ct. 305, 309, 193 L. Ed.
2d 255 (2015) (per curiam)). “Officials are not liable
for bad guesses in gray areas; they are liable for
transgressing bright lines.” Austell v. Sprenger, 690
F.3d 929, 936 (8th Cir. 2012) (quotation omitted).
Indeed, “existing precedent must have placed the
statutory or constitutional question beyond debate.”
White v. Pauly, 580 U.S. ___, 137 S. Ct. 548, 551, 196
L. Ed. 2d 463 (2017) (quoting Mullenix, 577 U.S. ___,
136 S. Ct. at 308). The defense therefore gives officials
some “breathing room to make reasonable but
mistaken judgments” and “some leeway when acting
in legally murky environments.” Estate of Walker, 881
F.3d at 1060.
In this case it is unclear when the plaintiffs
contend the trustees should have known to repeal the
Policy. Even assuming that the officials’ failure to
repeal the Policy—and therefore their involvement in
causing the plaintiffs’ injury—took place as late as the
day it was enforced against Hoggard and through the
day before it was repealed, they are entitled to
qualified immunity. As will be explained, the relevant
binding authority did not place the constitutional
question beyond debate such that every reasonable
official in the trustees’ positions would have known
that the failure to repeal the Policy, and its being
subsequently enforced against Hoggard in the
manner that it was, violated the constitution.
The first amendment, which the Supreme Court
has made applicable to the states through the
fourteenth amendment, provides that Congress shall
make no law abridging the freedom of speech. Const.

46a
Amend. I; Gitlow v. People of the State of N.Y., 268
U.S. 652, 45 S. Ct. 625, 69 L. Ed. 1138 (1925). Despite
the fact that the first amendment seemingly imposes
an absolute prohibition on laws that abridge the
freedom of speech, the Supreme Court has repeatedly
held that free speech is not an absolute right; and the
application of the first amendment to every state and
local governmental entity—including schools,
prisons, and a vast array of other governmental
bodies—makes it impossible for the prohibition to be
absolute. See Gresham v. Rutledge, 198 F. Supp. 3d
965, 968-69 (E.D. Ark. 2016).8
According to the federal appellate courts, the
constitutionally permitted extent to which the
government may control expressive activities on its
8 Smolla says that absolutism is too simplistic to be a viable
method of addressing “modern First Amendment conflicts.”
Rodney A. Smolla, 1 SMOLLA & NIMMER ON FREEDOM OF SPEECH
§ 2.50 (April 2019 update). That phrase suggests that something
has changed in “modern” times that renders absolutism no
longer able to decide first amendment issues. Smolla’s answer to
the question of what has changed is that the courts did not
develop first amendment jurisprudence until after World War II.
Id. The development of modern first amendment jurisprudence
thus closely follows the incorporation of the first amendment
into the fourteenth amendment, making it applicable to the
states. See Stromberg v. California, 283 U.S. 359, 368, 51 S. Ct.
532, 535, 75 L. Ed. 1117 (1931) (“the conception of liberty under
the due process clause of the Fourteenth Amendment embraces
the right of free speech”); Cantwell v. State of Connecticut, 310
U.S. 296, 303, 60 S. Ct. 900, 903, 84 L. Ed. 1213 (1940) (same).
In other words, the temporal sequence suggests that the
proliferation of free speech cases that cannot be resolved by
“absolutism” is due more to the expansion of the first
amendment beyond a prohibition simply on Congress than to
ambiguities in the terms “abridge” and “freedom of speech.”

47a
property turns on the nature of the property involved
and the restrictions imposed. Ball v. City of Lincoln,
Nebraska, 870 F.3d 722, 729 (8th Cir. 2017) “The
Supreme Court ‘has adopted a forum analysis as a
means of determining when the [g]overnment’s
interest in limiting the use of its property to its
intended purpose outweighs the interest of those
wishing to use the property for other purposes.’” Id.
(quoting Cornelius v. NAACP Legal Def. & Educ.
Fund, Inc., 473 U.S. 788, 800, 105 S. Ct. 3439, 87 L.
Ed. 2d 567 (1985)). The extent to which the
government can control access therefore depends on
the relevant forum.
A traditional public forum is an area that has
historically and traditionally been available for public
expression and that has the physical characteristics
of a public thoroughfare. Id. at 730 (citing Bowman v.
White, 444 F.3d 967, 975 (8th Cir. 2006)).
Quintessential examples are streets, sidewalks, and
public parks. Id. In such areas the government’s
ability to restrict speech is the most circumscribed:
any content-based restriction on speech must be
“necessary to serve a compelling state interest” and
must be “narrowly drawn to achieve that end.” Perry
Educ. Ass’n v. Perry Local Educators’ Ass’n, 460 U.S.
37, 45, 103 S. Ct. 948, 955, 74 L. Ed. 2d 794 (1983).
Still, the government may impose content-neutral
time, place, and manner restrictions on speech in
traditional public forums as long as the restrictions
are “narrowly tailored to serve a significant government interest, and leave open ample alternative
channels of communication.” Id. The government at
times intentionally opens up other public property for
public discourse; that is, in areas other than

48a
traditional public forums, the government may
designate its property as a public forum by making it
generally open to the public as a place for expressive
activity. Id. As long as it does so, the government is
bound by the same standards as in traditional public
forums. Id. at 46, 103 S. Ct. at 955. Finally, if government property is not traditionally and has not been
designated a forum for expressive activities by the
public, then the government may restrict or control
access to a greater degree. Id. In such areas, not only
may the government may establish time, place, and
manner regulations on speech, it may reserve the
forum for whatever the government’s intended
purpose may be, “as long as the regulation on speech
is reasonable and not an effort to suppress expression
merely because public officials oppose the speaker’s
view.” Id.
Identifying government property as the
appropriate type of forum—and so determining the
extent to which the government may restrict speech
there—is no easy task. And which type of forum best
describes a public university campus, or certain parts
of the campus, is a particularly vexed question. See
Hershey v. Goldstein, 938 F. Supp. 2d 491, 508-10
(S.D. N.Y. 2013) (collecting cases); compare Bowman,
444 F.3d at 776 (holding that the university spaces at
issue were “unlimited designated public fora”), with
Bowman, 444 F.3d at 983 (Bye, J., concurring)
(opining that the university spaces at issue “should be
recognized as traditional public fora”); compare Ball,
870 F.3d at 736 (holding entirety of a plaza area was
a nonpublic forum), with Ball, 870 F.3d at 737-38
(Melloy, J., dissenting) (opining that part of the plaza
area was a traditional public forum). Some courts

49a
have declined to use the complex forum analysis in
what is ultimately a search for sensible results—
particularly where the area at issue does not appear
to fit neatly into one of the Supreme Court's forum
classifications. See Gilles v. Blanchard, 477 F.3d 466,
473-74 (7th Cir. 2007) (declining to use the forum
“template” to resolve the case where the case at issue
falls between the cracks of the forum analysis).
Recognizing the difficulty of the issue is not to say
that first amendment law, according to the federal
appellate courts, is never clearly established and that
qualified immunity always protects state actors in
their individual capacities. At times the law is,
according to the courts, clearly established, and
university officials who transgress its bright lines are
on the hook for money damages. See, e.g., Burnham v.
Ianni, 119 F.3d 668, 675-77 (8th Cir. 1997) (en banc).
Here, however, the unlawfulness of failing to repeal
the policy would not have been apparent to reasonable
trustees standing in the defendants’ shoes.
Two Eighth Circuit cases primarily guide the
Court’s analysis here. The Eighth Circuit previously
upheld, for the most part, the University of
Arkansas’s analogous campus-wide policy regarding
use by speakers of its campus facilities and space.
Bowman, 444 F.3d at 983. That policy required,
among other things, non-university entities, like
Bowman, to make reservations in advance of using
campus space. Id. at 972. It also imposed a three-day
advance notice requirement before using the space.
Id. Bowman held that the outdoor areas at issue on
the University of Arkansas campus were unlimited
designated public forums because the university had

50a
long permitted speech, by both university and nonuniversity entities, at the locations at issue. Id. at
979. There was no evidence the policy was not content
neutral, and so the question became whether the
time, place, and manner restrictions on the property
were narrowly tailored to meet one or more of the
university’s proffered government interests.
The Eighth Circuit answered that three of the
four relevant restrictions were constitutional. The
requirement that non-University entities obtain a
permit before using the outdoor space was lawful even
though it was a prior restraint, against which there is
a heavy presumption of unconstitutionality. Id. at
980. The policy did not delegate overly broad
discretion to officials, and it did not allow the denial
or revocation of permits on the basis of content—it
applied to all nonprofit non-university entities, and
permits could be denied or revoked only for limited
reasons. Id. at 980-81. The permit requirement did
not burden substantially more speech than necessary
to further the university’s interests in ensuring public
safety, minimizing disruption of the educational
setting, and coordinating the use of limited space by
multiple entities. Id. at 981. The three-day notice
requirement was also constitutional despite
potentially preventing spontaneous speech—three
days was a relatively modest requirement, which
allowed the university to plan for exigencies such as
security, crowd control, and insurance requirements
that might be necessary for a given event. Id. at 982.9

The Eighth Circuit also held that a ban on non-university
entities during final examinations and commencement activities
9

51a
Like the University of Arkansas policy in
Bowman, the ASU Policy required speakers to
schedule their use of campus space for speaking and
to provide the University with advance notice of their
intent to do so, and, like that policy, the ASU Policy
applied to all individuals and entities. The Policy
similarly sought to serve legitimate interests,
comparable to those in Bowman, namely, assuring
equal opportunity for speech, preserving order within
the university community, protecting university
property, and providing a secure environment for
exercising freedom of expression. Document #1-3.
Reasonable university trustees in the positions of the
members of the ASU Board of Trustees could have
understood Bowman to mean that permit and
advance notice requirements for speakers on a
university campus may be used without violating the
first amendment—even if the campus areas are
designated public forums—and that failing to repeal
ASU’s similar Policy would not violate a clearly
established constitutional right.
Another Eighth Circuit decision—decided less
than two months before the incident at issue in this
case—further demonstrates that it was reasonable for
officials standing in the defendants’ shoes not to
repeal the Policy. In Ball v. City of Lincoln, Nebraska,
the Eighth Circuit held that an outdoor plaza—owned
was constitutional. Id. The only aspect of the University of
Arkansas’s policy that was held unconstitutional was a five-day
cap on which a speaker could speak per semester — this part of
the policy was not narrowly tailored to achieving its interest in
fostering diversity and avoiding monopolization of space because
the policy could just as easily allow the plaintiff more days to
speak if the space was not already being used. Id. at 981-82.

52a
by the city but managed by an entertainment venue
company—was a nonpublic forum where the government was minimally restricted. 870 F.3d 722, 736 (8th
Cir. 2017). This was true despite that the plaza area
possessed physical features that made it look like a
public forum and that it was physically accessible to
the public. Id. at 731-33. It was primarily a venue for
commercial use by the arena, a means to facilitate
safe access for its patrons, a security screening area,
and a gathering place for arena patrons. Id. The
Eighth Circuit noted that there was no evidence that
the plaza was used for public expression or that it was
made available for expressive activity by the public.
Id. at 735. The City’s principal purpose with respect
to the plaza was to protect the rights of arena tenants,
to allow for crowd management and safety, to provide
a gathering place for arena patrons, and to provide an
area for security screening—not to be open to the
public for expressive activities. Id.
The defendants argue that, like the plaza in Ball,
Heritage Plaza is a nonpublic forum where the
government may more broadly restrict speech. The
plaintiffs say that Ball does not support ASU’s
position because, unlike the plaza in Ball, Heritage
Plaza has long been open for expressive activities by
the public. The defendants contend, however, that
ASU did not open Heritage Plaza—where Hoggard
and Parry set up their table—for expressive activity
by the public, but restricted expressive activity to only
certain types of speech.
According to the defendants, as a matter of
practice, Heritage Plaza is not generally available to
the public for expressive activities; thus, it is not a

53a
traditional or designated public forum. Document #50
at 2-4. They point to the deposition and declaration
testimony of Elizabeth Rouse, the university
employee who is charged with booking reservations
for the space around the Reng Student Union.
Document #35-5 at 2. Rouse testified that only
Registered Student Organizations and ASU
departments were allowed to reserve that area. Id.;
Document #35-4 at 14, 18-19. In her deposition Rouse
identified Heritage Plaza as available only for
Registered Student Organizations to reserve.
Document #34-4 at 18-19; see also Document #35-13
(satellite image). She specified a nearby but separate
grassy area along Caraway Road as an area available
for general reservation under the Policy. Document
#34-4 at 18-19; see also Document #35-13.
The plaintiffs argue that the Policy itself disputes
Rouse’s testimony because, they say, the Policy lists
the area where Hoggard and Parry set up their table
as a Free Expression Area open to reservation by
anyone. The Policy, however, confirms Rouse’s
testimony because it describes the third Free
Expression Area as “Heritage Plaza east of Reng
Student Union at Caraway Road”—the location
specified by Rouse—and not anywhere in Heritage
Plaza. Document #1-3 at 3.
The plaintiffs next point out that the Policy allows
“other areas of the campus,” besides the Free
Expression Areas, to be reserved if any individual or
group desires to use them. Id. at 2. They say that this
reference to “other areas of campus” for speech by any
individual or group means that Heritage Plaza is not
limited to only specific groups. But the fact that other

54a
areas of campus may be reserved by anyone does not
contradict the defendants’ evidence that, as a matter
of ASU practice, Heritage Plaza may be reserved only
by university-affiliated groups.
Finally, the plaintiffs argue that a nonuniversity-affiliated speaker held an event in
Heritage Plaza on October 11, 2017, belying ASU’s
contention that only university-affiliated speakers
are allowed there. Document #50 at 3-4. But, as
explained above, it is undisputed that anyone may
reserve the separate grassy area at the end of
Heritage Plaza along Caraway Road, and Rouse’s
unrebutted deposition testimony reflects that the
other speaker was at the end of Heritage Plaza.
Document #35-4 at 25.
In short, the plaintiffs have failed to present
evidence to create a genuine dispute as to whether
ASU has reserved Heritage Plaza—including the
patio portion where Hoggard and Parry set up their
table—for speech by only certain university-affiliated
speakers, and that it is not generally open for
expressive activity by the public. See Perry Educ.
Ass’n, 460 U.S. at 46, 103 S. Ct. at 955. In Ball, that
the plaza was not open for expressive activity by the
public informed the Eighth Circuit’s holding that it
was a nonpublic forum. Ball therefore further
supports the conclusion that the defendants did not
transgress a bright line of first amendment case law
when it failed to repeal the Policy that effectively
restricted speech in the Heritage Plaza patio.
The plaintiffs have not met their burden to
demonstrate that the right at issue was clearly

55a
established. See Morgan, 920 F.3d at 524. The only
cases to which they can point are non-binding district
court cases. See Clayton Smith v. Tarrant Cnty. Coll.
Dist., 670 F. Supp. 2d 534 (N.D. Tex. 2009); Pro-Life
Cougars v. Univ. of Houston, 259 F. Supp. 2d 575
(S.D. Tex. 2003); Univ. of Cincinnati Chapter of Young
Ams. for Liberty v. Williams, 2012 WL 2160969 (S.D.
Ohio June 12, 2012). A “robust consensus” of
persuasive authority can perhaps dictate that law is
clearly established. Lane v. Nading, 927 F.3d 1018,
1022 (8th Cir. 2019) (quoting Wesby, 138 S. Ct. at
589). But a handful of district court cases is not robust
consensus, see id. at 1023, and the strong Eighth
Circuit precedent to the contrary further shows that
these cases do not represent a robust consensus.
Bowman and Ball show that Rhodes, Langford,
Crowson, Crawford, and Gardner acted well within
the breathing room accorded them as public officials
in making the decision—even if mistaken—not to
repeal the Policy. Summary judgment is therefore
granted in favor of the defendants on the plaintiffs’
first amendment claims.
The plaintiffs also claim a violation of their
fourteenth amendment right to due process of law.
They say that the Policy violated their right to due
process because its terms “speaking, demonstrating,
and other forms of expression” are vague and
undefined. Vague regulations are impermissible
under the due process clause because they fail to
provide adequate notice of prohibited conduct and
they allow for arbitrary and discriminatory
enforcement. Stephenson v. Davenport Cmty. Sch.
Dist., 110 F.3d 1303, 1308 (8th Cir. 1997) (citing
Smith v. Goguen, 415 U.S. 566, 572-73, 94 S. Ct. 1242,

56a
1247, 39 L. Ed. 2d 605 (1974); Connally v. Gen.
Constr. Co., 269 U.S. 385, 391, 46 S. Ct. 126, 127, 70
L. Ed. 322 (1926)). “A stringent vagueness test applies
to a law that interferes with the right of free speech.”
Id. at 1309. Nevertheless, “perfect clarity and precise
guidance have never been required even of
regulations that restrict expressive activity.” Adam &
Eve Jonesboro LLC v. Perrin, No. 18-2818, *7-*8 (8th
Cir. Aug. 12, 2019) (quoting Holder v. Humanitarian
Law Project, 561 U.S. 1, 18-19, 130 S. Ct. 2705, 177 L.
Ed. 2d 355 (2010)).
In an as-applied vagueness challenge, such as this
one, the Court must consider the particular facts at
hand because a “plaintiff who engages in some
conduct that is clearly proscribed cannot complain of
the vagueness of the law as applied to the conduct of
others.” Holder, 561 U.S. at 18-19, 130 S. Ct. at 2719.
This general rule applies equally to expressive
conduct. Id. at 19, 130 S. Ct. at 2719. Thus, even if the
scope of a statute or regulation is not clear in every
application, if the terms are clear in their application
to a plaintiff's conduct, the vagueness challenge must
fail. Id. at 21, 130 S. Ct. at 2720.
A regulation is unconstitutionally vague, and
therefore void, if it does not provide a person of
ordinary intelligence with fair notice of what it
prohibits or requires. See id. at 20-22, 130 S. Ct. at
2720-21. Courts have traditionally relied on the
common usage of statutory language, judicial explanations of its meaning, and previous applications of
the statute to the same or similar conduct in order to
determine whether an ordinance is unconstitutionally
vague. Stephenson, 110 F.3d at 1309.

57a
The plaintiffs’ claim that the individual trustees
violated their fourteenth amendment right to due
process of law fails for the same reason as their first
amendment claim. Taking into account the specific
facts of this case, the plaintiffs have not demonstrated
that enforcing the Policy against Hoggard violated a
clearly established right. See Estate of Walker, 881
F.3d at 1061 (reversing the denial of qualified
immunity because the district court defined the
constitutional right in question too generally; the
issue of whether the right was clearly established
must be particularized to the case).
Instead, the activities in which Hoggard engaged
comfortably fall within the scope of the Policy terms
“speaking, demonstrating, and other forms of
expression.” Although it is undisputed that the Policy
does not define those terms, the Policy as a whole
reveals their meaning. See Document #1-3. The
introduction explains that the Policy serves to balance
university operations with ASU’s commitment to
affording
opportunities
for
“protests
and
demonstrations.” The section describing how to
reserve Free Expression Areas is entitled “Speeches
and Demonstrations.” All these words signify formal
methods of expression, and they inform the words
“speaking, demonstrating, and other forms of
expression” mentioned in the Policy. A person of
ordinary intelligence would know that the Policy
embraces setting up a table to promote a nonuniversity political organization and soliciting
membership into it. Moreover, considering any
“previous applications of the [Policy] to the same or
similar conduct,” there is no evidence the Policy has
ever been enforced against, for example, merely

58a
casual conversations or study groups. See Stephenson,
110 F.3d at 1309.
The plaintiffs note that it is difficult to determine
whether the Policy applies to hypothetical situations.
They point to ASU officials’ deposition testimony
revealing uncertainty as to whether the Policy would
apply in gray areas, such as to students wearing
“Make America Great Again” hats. “Whatever force
these arguments might have in the abstract, they are
beside the point” in this as-applied challenge. Holder,
561 U.S. at 22, 130 S. Ct. at 2721. Hoggard and
Parry’s actions readily fall within the Policy’s ambit,
and so the plaintiffs’ case presents no such vagueness
problem. See id. at 23, 130 S. Ct. at 2721.
The plaintiffs have not cited a case in which
similar language was held unconstitutionally vague
as applied to similar conduct, nor have they otherwise
met their burden to demonstrate that the right at
issue was clearly established. See Morgan, 920 F.3d
at 524. Summary judgment is therefore granted in
favor of the remaining defendants on the plaintiffs’
fourteenth amendment claims.
CONCLUSION
For the reasons explained, the plaintiffs’ claims
are dismissed as moot except for their claims against
the defendants in their individual capacities for
damages for the enforcement of the now-repealed
ASU Freedom of Expression Policy against them. The
motion to dismiss is therefore GRANTED IN PART
and DENIED IN PART. Document #57. The ASU
administrators—Charles Welch, Kelly Damphousse,

59a
William Stripling, and Martha Spack—did not
participate in the enforcement of the Policy against
the plaintiffs, and they cannot be liable absent
personal
participation.
Therefore,
summary
judgment is granted in their favor on the plaintiffs’
claims against them in their individual capacities.
The ASU trustees—Ron Rhodes, Tim Langford, Niel
Crowson, Stacy Crawford, and Price Gardner—are
protected by the doctrine of qualified immunity from
the plaintiffs’ claims against them in their individual
capacities for failing to repeal the campus policy and
for Rhodes’s participation in adopting the systemwide policy. They are entitled to summary judgment
on that basis. The defendants’ motion for summary
judgment is GRANTED as to the plaintiffs’ damage
claims against them in their individual capacities.
Document #35. The defendants’ supplemental motion
for summary judgment is DENIED. Document #67.
The plaintiffs’ motion for summary judgment is
DENIED. Document #40.
IT IS SO ORDERED this 19th day of August,
2019.

60a
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
JONESBORO DIVISION
TURNING POINT USA
AT ARKANSAS STATE
UNIVERSITY;
and ASHLYN HOGGARD
v.

PLAINTIFFS

No. 3:17CV00327 JLH

RON RHODES, in his individual
and official capacities as member of
the Board of Trustees of Arkansas
State University System; et al.
DEFENDANTS
OPINION AND ORDER
Ashlyn Hoggard is a student at Arkansas State
University in Jonesboro, Arkansas. She wanted to
form a Turning Point USA chapter and register it as
a student group on campus. In the Fall 2017 semester,
Hoggard and a Turning Point employee set up a table
with two poster boards about Turning Point on the
edge of a large walkway outside the student union.
The table was not obstructing any buildings’ exits or
entrances. They talked with students and encouraged
them to join their group. A university employee and
campus police officer soon informed Hoggard and her
companion that they were violating the campus
freedom of expression policy. The officer issued
Hoggard’s guest a criminal trespass warning and
banned her from the entire campus.

61a
The freedom of expression policy governs first
amendment expression on all of campus. Document
#1-2; Document #1-3. The policy distinguishes
between “Free Expression Areas” and all other areas
of campus, whether greens, buildings, or sidewalks
and roads. Id. The policy applies to faculty, staff,
students, student organizations, and visitors. Id. Free
expression areas are generally available for speeches
and demonstrations between 8:00 a.m. and 9:00 p.m.
Monday through Friday. Document #1-3. Persons
wishing to use this space must request permission to
use it in advance with the Director of Student
Development and Leadership. Id. Persons wishing to
use other areas of campus must request permission at
least 72 hours in advance with the Vice Chancellor of
Student Affairs or the Director of Student
Development and Leadership. Id. In addition, those
wishing to distribute noncommercial written
material, such as pamphlets or circulars, may only do
so in certain designated areas and only with the
permission of the Director of Student Development
and Leadership. Id. Stands, tables, and booths may
only be used in free expression areas to distribute
written materials. Id. The policy does not require
university officials to respond to requests to use free
speech areas or other areas within a certain time
frame or even at all. Id.
Hoggard and the Turning Point organization sued
various university officials in their official and
individual capacities, alleging that the freedom of
expression policy is unconstitutional both facially and
as applied to Hoggard and the organization. She says
that this policy has unconstitutionally burdened her
protected first amendment rights. She wants to

62a
discuss Turning Point with students and hand out
written materials without needing the approval of the
university in advance. The university has now moved
to dismiss the complaint on three grounds: standing,
sovereign immunity, and qualified immunity.
To survive a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). Although detailed factual allegations
are not required, the complaint must set forth
“enough facts to state a claim to relief that is plausible
on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570, 127 S. Ct. 1955, 1974, 167 L. Ed. 2d 929 (2007).
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 1949, 173 L. Ed. 2d 868
(2009). The Court accepts as true all of the factual
allegations contained in the complaint and draws all
reasonable inferences in favor of the nonmoving
party. Gorog v. Best Buy Co., Inc., 760 F.3d 787, 792
(8th Cir. 2014). The complaint must contain more
than labels, conclusions, or a formulaic recitation of
the elements of a cause of action, which means that
the court is “not bound to accept as true a legal
conclusion couched as a factual allegation.” Twombly,
550 U.S. at 555, 127 S. Ct. at 1965.
The defendants argue that Hoggard and the
organization lack standing to challenge the policy
because Hoggard never requested nor was denied a
permit. They also say that Hoggard and the

63a
organization are not challenging the policy’s
prohibition on the use of stands, tables, or booths ,
and, therefore, any remedy would not afford them
relief. The constitutional requirement of standing
does not require Hoggard first to seek and be denied
a permit before she will have an injury. See Bloedorn
v. Grube, 631 F.3d 1218, 1228 (11th Cir. 2011)
(rejecting challenge to standing where plaintiff did
not seek a permit from the university); see also
Watchtower Bible & Tract Soc’y of New York, Inc. v.
Vill. of Stratton, 536 U.S. 150, 157-58, 122 S. Ct. 2080,
2085, 153 L. Ed. 2d 205 (2002) (“They also explained
at trial that they did not apply for a permit because
they derive their authority to preach from
Scripture.”). More fundamentally, Hoggard’s alleged
injury is not that the permit was denied but that she
had to seek a permit in the first place. With respect to
the second part of the defendants’ standing argument,
the complaint makes clear that Hoggard and Turning
Point are challenging the policy as a whole and as
applied to their conduct when they were asked to
leave by the university employee and campus police
officer. See Document #1 at ¶¶109-18, 129. The
plaintiffs have standing.
The defendants next argue that the plaintiffs’
claims are barred by sovereign immunity. The
defendants acknowledge, though, that claims against
state officials in their official capacities for
prospective injunctive relief are not barred by
sovereign immunity. Hoggard and Turning Point seek
prospective injunctive relief against the defendants in
their official capacities and seek compensatory
damages against the defendants only in their

64a
individual capacities. The plaintiffs’ claims are not
barred by sovereign immunity.
The defendants last argue that they are entitled
to qualified immunity because “[t]his case is
materially indistinguishable from Bowman v. White,
444 F.3d 967 (8th Cir. 2006), which upheld the
constitutionality of substantively identical policy
provisions of the University of Arkansas at
Fayetteville.” The defendants’ argument relies almost
entirely on Bowman governing this case. At this
stage, the Court cannot say as a matter of law that
Bowman controls the facts here. First, Bowman was
decided after a plenary hearing—a proceeding under
Federal Rule of Civil Procedure 65(a)(2) wherein a
court consolidates the hearing on a preliminary
injunction with the trial on the merits—and not at
this early stage. Second, the plaintiff in Bowman only
challenged the policy as applied to his activities.
Third, the Eighth Circuit was careful to tailor its
analysis to the facts before it in Bowman. For
example, the court limited its forum analysis to
specific locations on Fayetteville’s campus, id. at 977,
979, and the court also analyzed the university’s time,
place, and manner restrictions in light of the
plaintiff’s “demonstrated . . . capacity to attract a
crowd and disrupt the unique educational
environment.” Id. at 981.
Perhaps most significantly, the policy at issue in
Bowman was not made a part of the pleadings and is
not before the Court. Other than the description in
Bowman and the court’s as-applied analysis of it, this
Court has no way of knowing whether it is materially
indistinguishable to Arkansas State’s policy.

65a
Moreover, even if the policies were materially
indistinguishable, the forums are not. The spaces and
their historical uses are unique to each campus.
The university’s freedom of expression policy
requires Hoggard to seek and receive the university’s
permission before she is allowed to exercise first
amendment freedoms on campus. The policy is a prior
restraint on her first amendment rights, as
interpreted by the Supreme Court, against which
there is a “heavy presumption” of unconstitutionality.
See Forsyth Cnty., Ga. v. Nationalist Movement, 505
U.S. 123, 130, 112 S. Ct. 2395, 2401, 120 L. Ed. 2d 101
(1992).
At this stage, the Court cannot say that Bowman
controls this case, nor that this presumption has been
rebutted. The defendants’ motion to dismiss is
DENIED. Document #11.
IT IS SO ORDERED this 23rd day of March, 2018.

